<html>
<title> - COMBATING HUMAN TRAFFICKING IN CHINA: DOMESTIC AND INTERNATIONAL EFFORTS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
   COMBATING HUMAN TRAFFICKING IN CHINA: DOMESTIC AND INTERNATIONAL 
                                EFFORTS

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2006

                               __________

 Printed for the use of the Congressional-Executive Commission on China











         Available via the World Wide Web: http://www.cecc.gov



                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

26-671                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001







              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

CHUCK HAGEL, Nebraska, Chairman
SAM BROWNBACK, Kansas
GORDON SMITH, Oregon
JIM DeMINT, South Carolina
MEL MARTINEZ, Florida
MAX BAUCUS, Montana
CARL LEVIN, Michigan
DIANNE FEINSTEIN, California
BYRON DORGAN, North Dakota

                                     JAMES A. LEACH, Iowa, Co-Chairman
                                     DAVID DREIER, California
                                     FRANK R. WOLF, Virginia
                                     JOSEPH R. PITTS, Pennsylvania
                                     ROBERT B. ADERHOLT, Alabama
                                     SANDER LEVIN, Michigan
                                     MARCY KAPTUR, Ohio
                                     SHERROD BROWN, Ohio
                                     MICHAEL M. HONDA, California

                     EXECUTIVE BRANCH COMMISSIONERS

                   STEVEN J. LAW, Department of Labor
                 PAULA DOBRIANSKY, Department of State
                David Dorman, Staff Director (Chairman)
               John Foarde, Staff Director (Co-Chairman)

                                  (ii)























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Opening statement of Hon. Chuck Hagel, a U.S. Senator from 
  Nebraska, Chairman, Congressional-Executive Commission on China     1
Leach, Hon. James A., a U.S.Representative from Iowa, Co-
  chairman, Congressional-Executive Commission on China..........     3
Law, Steven J., Deputy Secretary, U.S. Department of Labor, 
  Member, Congressional-Executive Commission on China............     4
Smith, Hon. Christopher H., a U.S. Representative from New Jersey     5
Miller, Hon. John R., Ambassador-at-Large and Director, Office to 
  Monitor and Combat Trafficking in Persons, U.S. Department of 
  State; accompanied by Mark B. Taylor, Senior Coordinator, 
  Reports Office to Monitor and Combat Trafficking in Persons, 
  Washington, DC.................................................     8
Plant, Roger, Head, Special Action Program to Combat Forced 
  Labor, International Labor Organization, Geneva, Switzerland...    17
Perkins, Wenchi Yu, Director, Anti-Trafficking and Human Rights 
  Program, Vital Voices, Washington, DC..........................    22
Lee, Abraham, Director of Public Relations, Crossing Borders, 
  College Park, MD...............................................    25

                                APPENDIX
                          Prepared Statements

Smith, Hon. Christopher H........................................    36
Miller, Hon. John R..............................................    38
Plant, Roger.....................................................    40
Perkins, Wenchi Yu...............................................    44
Lee, Abraham.....................................................    49
Hagel, Hon. Chuck................................................    52
Leach, Hon. James A..............................................    54
Brownback, Hon. Sam, a U.S. Senator from Kansas, Member, 
  Congressional-Executive Commission on China....................    54
Law, Hon. Steven J...............................................    56
















   COMBATING HUMAN TRAFFICKING IN CHINA: DOMESTIC AND INTERNATIONAL 
                                EFFORTS

                              ----------                              


                         MONDAY, MARCH 6, 2006

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:05 p.m., 
in room 419, Dirksen Senate Office Building, Senator Chuck 
Hagel (Chairman of the Commission) presiding.
    Also present: Representative Jim Leach, Co-Chairman; 
Representative Sander M. Levin; and Steven J. Law, Deputy 
Secretary, U.S. Department of Labor.

  OPENING STATEMENT OF HON. CHUCK HAGEL, A U.S. SENATOR FROM 
NEBRASKA, CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Chairman Hagel. Good afternoon. Welcome.
    The Congressional-Executive Commission on China meets today 
to examine human trafficking in China. The Commission will also 
consider domestic and international efforts to help stop human 
trafficking in and through China, and to help rehabilitate 
victims of trafficking.
    Human trafficking in China is a serious problem. According 
to a 2002 UNICEF estimate, there are approximately 250,000 
victims of trafficking in China. Traffickers are increasingly 
linked to organized crime, and specialize in abducting girls 
and women, both for the bridal market in China's poorest areas, 
and for sale as prostitutes in urban areas. North Korean 
refugees are an especially vulnerable group.
    Today's Administration witness, Ambassador John Miller, has 
estimated that 80 to 90 percent of the refugees from North 
Korea, particularly women and children, end up as trafficking 
victims.
    The Chinese Government has publicly acknowledged the 
seriousness of the problem and taken steps to stop trafficking 
and aid 
victims. Chinese experts and officials have cooperated with 
international agencies, including the ILO and UNICEF, to combat 
trafficking.
    China's law on the protection of rights and interests of 
women outlaws trafficking, as does Article 240 of the Criminal 
Law, and outlines harsh penalties for those convicted of human 
trafficking-related crimes.
    These steps reflect a serious effort, but the Chinese 
Government needs to do far more. The Commission is concerned 
that China fell from Tier 2 to Tier 2 Watch Status in the State 
Department's ``Trafficking in Persons Report'' in 2005 because 
of inadequate protection of trafficking victims.
    The Chinese Government must uphold international agreements 
and grant the U.N. High Commissioner for Refugees unimpeded 
access to screen the refugee petitions of North Koreans in 
China.
    The Chinese Government has not signed the U.N. Protocol to 
Prevent, Suppress, and Punish Trafficking in Persons, 
Especially Women and Children.
    The United States can also do more. In its 2005 Annual 
Report, the Commission recommended that the President and 
Congress continue to support international programs to build 
law enforcement capacity to prevent trafficking in and through 
China, and additionally should develop and fund programs led by 
U.S.-based NGOs that focus on the protection and rehabilitation 
of victims, 
especially legal and educational assistance programs. But the 
Chinese Government must become more open to cooperation with 
foreign NGO groups. To help us better understand the human 
trafficking problem in China, and international and domestic 
efforts to fight trafficking and assist victims, we turn to our 
witnesses today.
    Representative Chris Smith has been a leader in 
Congressional efforts to combat trafficking worldwide and to 
assist victims of trafficking. Earlier this year, President 
Bush signed into law Representative Smith's third anti-
trafficking bill, the Trafficking Victims Protection 
Reauthorization Act of 2005. This new law provides significant 
additional anti-trafficking and protection measures for victims 
and potential victims of trafficking. Representative Smith is 
Vice Chairman of the House International Relations Committee 
and Chairman of the International Relations Subcommittee on 
Africa, Global Human Rights, and International Operations. The 
Commission is very pleased that Mr. Smith will be making a 
statement at today's hearing.
    Speaking on behalf of the Administration will be Ambassador 
John Miller, who is Director of the State Department's Office 
to Monitor and Combat Trafficking in Persons, and Senior 
Advisor to Secretary of State Condoleeza Rice on Human 
Trafficking. From 1985 to 1993, Mr. Miller served in the U.S. 
House of Representatives from the State of Washington. While in 
Congress, Mr. Miller held a seat on the Committee on 
International Relations, and was a member of the Congressional 
Human Rights Caucus.
    After Ambassador Miller, we will hear from a distinguished 
panel of experts who will share their knowledge and expertise. 
Mr. Roger Plant will lead panel three. Mr. Plant is the head of 
the ILO's Special Action Program to Combat Forced Labor. Mr. 
Plant has been a leading investigator and activist on forced 
labor and modern slavery for more than 30 years. Prior to 
joining the ILO, Mr. Plant worked with the Asian Development 
Bank, United Kingdom Department for International Development, 
Inter-American Development Bank, the United Nations Office of 
the High Commissioner for Human Rights, Shell International, 
Danish International Development Agency, and several 
international human rights NGOs.
    Ms. Wenchi Yu Perkins will provide perspectives on the 
problem of human trafficking to and from China. Ms. Perkins is 
the Director of Anti-Trafficking and Human Rights Programs at 
Vital Voices. Prior to joining Vital Voices, Ms. Perkins worked 
with victims of trafficking and conducted training for law 
enforcement and NGOs in the Midwest. She was also a foreign 
policy assistant in Taiwan's legislature, and worked in the 
Taiwan Economic and Cultural Representative's office in 
Chicago. She has an M.A. in International Relations from the 
University of Chicago, and a B.A. in Political Science from 
National Taiwan University.
    Finally, Mr. Abraham Lee will testify to the Commission on 
the problems faced by North Korean refugees in China. Mr. Lee 
is Director of Public Affairs for Crossing Borders, a non-
governmental organization devoted to assisting North Korean 
refugees in northeast China. Mr. Lee has been in China for the 
past three years, working with North Korean refugees and 
teaching college English. He received his B.A. in Economics 
from the University of Maryland in 1999, and his J.D. from the 
Maryland School of Law in 2002.
    We welcome all of our witnesses today and appreciate their 
time and presentations.
    Before we begin with Congressman Smith, I would ask the Co-
Chairman of the Commission, Mr. Leach, a senior member of the 
House International Relations Committee from the State of Iowa, 
if he would like to make a presentation. Then after Congressman 
Leach, I would ask the Deputy Secretary of Labor, Mr. Law, if 
he would care to make a statement. Congressman Leach.

 STATEMENT OF HON. JAMES A. LEACH, A U.S. REPRESENTATIVE FROM 
 IOWA, CO-CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Representative Leach. Mr. Chairman, I would just ask 
unanimous consent to put my statement in the record.
    Chairman Hagel. Without objection, it will be placed in the 
record.
    Representative Leach. I am, and I am sure I speak for all 
of us, deeply honored that Chris Smith has joined us today. 
Chris is really an acknowledged expert on this subject, and our 
House's strongest moral voice on issues of this nature. We 
appreciate your coming, Chris.
    John Miller, our colleague, has longstanding expertise on 
these issues as well, and has served with great distinction at 
the State Department. We appreciate you are with us now as an 
ambassador, John.
    With regard to the issue, I think it is important to note 
that the problems are truly profound, but China has taken some 
modest steps. Some 25,000 people have been arrested over a 
three-year period, from 2002 to 2004, and laws have been 
improved. On the other hand, it is not clear that the Chinese 
Government has paid as great attention to enforcement as should 
be the case. In fact, that would be an understatement. When you 
have a quarter of a million women that seem to be in jeopardy 
in human trafficking in a given country, that is an 
extraordinary thing that the world community cannot ignore.
    We as a Congress are particularly sensitive to the North 
Korean refugee issue, which is one of the great dilemmas of 
modern times. The notion that a people would vote with their 
feet to become trafficked really underscores the dilemma of 
North Korea itself, so we have to really be attentive to that.
    Thank you, Mr. Chairman.
    [The prepared statement of Representative Leach appears in 
the appendix.]
    Chairman Hagel. Congressman Leach, thank you.
    Deputy Secretary of Labor, Mr. Law.

      STATEMENT OF STEVEN J. LAW, DEPUTY SECRETARY, U.S. 
DEPARTMENT OF LABOR, MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION 
                            ON CHINA

    Mr. Law. Thank you. I also have a written statement for the 
record that I ask unanimous consent to have placed in that 
record.
    Chairman Hagel. Without objection, it will be placed in the 
record.
    Mr. Law. I will just abbreviate those comments.
    First, I want to commend the Chairman and the staff of the 
Commission for organizing this important hearing today on the 
timely subject of human trafficking in China.
    This Commission has an important mandate to not only study 
and report on human rights issues in China, but also to visibly 
highlight those issues and offer constructive policy responses 
for the benefit of the Executive Branch and the Legislative 
Branch.
    As we all know, there is tremendous ferment in the People's 
Republic of China, and most of the developments that we see 
have to do with economic growth and change. But China's rapid 
economic growth also raises a broad array of other pressing 
issues--many internal and many with global implications.
    Increasingly, we see issues such as human rights, worker 
protections, open access to the Internet, and intellectual 
property rights all moving to the front burner in China, and 
even converging at various points.
    One of the most consequential facts of life in this rapidly 
developing nation is the mass migration of its people to urban 
and industrialized areas in search of economic opportunity. 
That is not necessarily a bad change.
    But when there is such rapid movement of people, especially 
people who are economically and socially vulnerable, people who 
are moving from safe, familiar communities to anonymous, 
unfamiliar destinations, that is where the potential for 
exploitation arises. And, of course, there is no more heinous 
form of exploitation than human trafficking.
    President George W. Bush has called human trafficking a 
``modern form of slavery'' and has committed his Administration 
to the fight against this global scandal. Just over a month 
ago, in part because of the tremendous work of our first 
witness, Congressman Smith, the President signed into law the 
Trafficking Victims Protection Reauthorization Act, 
strengthening U.S. Government efforts to combat human 
trafficking, both here and abroad.
    Over the last 10 years, the Department of Labor has 
invested over $164 million in projects worldwide that are 
designed to stop human trafficking for the purposes of forced 
labor and commercial sexual exploitation.
    Today, we will be focusing on a critical question: just how 
pervasive is the problem of human trafficking today in China? 
At the same time, regardless of whether the problem is as 
widespread in China today as it is in some other countries, we 
need to note the confluence of conditions that make China 
especially vulnerable to the growth of human trafficking in its 
future: its enormous population, the mass migration of people 
within its borders and across its borders, pockets of dire 
economic need in some parts of the country, and its proximity 
to other nations where human trafficking is pervasive.
    There are significant cultural factors as well that 
contribute to human trafficking pressures. For example, there 
are continuing reports of forced marriage and the unique 
pressures created by the Chinese Government's one child policy 
all increase the likelihood that China may develop a serious 
human trafficking problem--if proactive steps are not taken now 
to prevent that from happening.
    In the last few years, the Chinese Government has stepped 
forward to address a range of human rights and worker rights 
issues, and the U.S. Department of Labor has provided technical 
support and other assistance for these welcome efforts.
    We at the Department of Labor look forward to working with 
China and the non-governmental organization community to help 
shape effective national policies, gather reliable data, and 
pursue aggressive law enforcement strategies to overcome this 
problem in China.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Law appears in the 
appendix.]
    Chairman Hagel. Secretary Law, thank you.
    Congressman Smith, welcome. We are glad you are here.

 STATEMENT OF HON. CHRISTOPHER H. SMITH, A U.S. REPRESENTATIVE 
                        FROM NEW JERSEY

    Representative Smith. Mr. Chairman, thank you so much for 
the very kind introduction, and to all three of you for the 
extraordinary work you are doing on behalf of the people of 
China, especially its victims. You stand with the oppressed and 
not the oppressor, and I think you are to be greatly 
congratulated for that.
    To Congressman Leach, with whom we have had a number of 
hearings together, joint hearings on issues relevant to China, 
to North Korea--we had two last year--thank you for your kind 
words. I feel very much indebted to your fine work on behalf of 
human rights around the globe, but especially in China.
    This hearing is particularly timely. I would ask unanimous 
consent that my full statement be made part of the record.
    Chairman Hagel. Without objection, it will be included in 
the record.
    Representative Smith. I thank you, Mr. Chairman.
    This hearing is particularly timely. A BBC report in 
January 2006 indicates that China may replace Thailand in the 
next few years as the region's trafficking hub, all at a time 
when the age of victims being trafficked is falling. With too 
much frequency, we now read news accounts, as well as NGO 
reporting, of women and girls being abducted in places like 
Burma, North Korea, and Vietnam, who are then trafficked and 
sold into slavery into the People's Republic of China.
    We all know that China has a myriad of human rights abuses, 
in addition to repression of religious freedom and political 
freedom. Mr. Leach and I just co-chaired a hearing that went 
for about seven hours just a couple of weeks ago on the new 
crackdown on the Internet and the use of the Internet, 
especially by the public security police, to find, apprehend, 
incarcerate, and then eventually torture in the laogai system 
those who believe in human rights and freedom, and those who 
are promoting religious freedom as well. So there is this all-
encompassing repression which we see in China, notwithstanding 
the strides that have been made in the area of economic 
freedom.
    I would like to offer, in addition to what I think many of 
our witnesses will offer, some of the reasons for this growth 
of trafficking in China.
    In addition to the proliferation of gangs, the huge amounts 
of money that are to be made by trafficking women, by turning 
women into commodities, is not unlike drug trafficking, which 
continues to be the biggest moneymaker. We now know that human 
trafficking is probably number two in terms of moneymakers for 
international organized crime. Regrettably, this exploitation 
of women is done over and over again, as the victim is 
exploited and raped, and the money that is made or gleaned from 
it puts more money into the traffickers' pockets.
    But I would like to offer an additional couple of reasons--
at least one, maybe two--as to why this issue in China is 
unique. I would offer to my friends and colleagues that if we 
ask why so many women now are being trafficked into China, 
since 1979, I think, as members know, the People's Republic of 
China has imposed and implemented a cruel policy that has 
systematically rendered children illegal and ``dead'' unless 
authorized by what they call a birth allowance certificate. The 
``one child per couple'' policy imposes ruinous fines, up to 10 
times both the husband and wife's salary, for a child who is 
conceived outside of a government plan. As a direct result of 
these ongoing crimes against humanity, China today is missing 
girls, girls who are murdered simply because they are girls--
gendercide.
    A couple of years ago, the State Department suggested that 
as many 100 million girls of all ages are missing. That is to 
say, they should be alive and well somewhere in China, but are 
not, a direct consequence of the one child policy.
    China is the only country in the world whose systematic 
human rights abuses touch virtually every chapter without 
exception. It results in the mass killing of people based 
exclusively on their gender. Gendercide, in fact, constitutes 
one of humanity's worst blights.
    Let me just point out to my colleagues, and I have given 
you a copy of just one report that was from about a year ago, 
March 9, 2004, that was in The Guardian newspaper. It points 
out that there may be as many as 40 million single men by the 
year 2020 who are looking for wives and cannot find them 
because of the one child policy, creating a shortage of female 
babies. It points out what Li Weixiang, who advises the Chinese 
People's Political Consultative Conference on population 
issues, said at a conference: ``This is by no means a 
sensational prediction, and that it will lead to a dramatic 
rise in prostitution and in the trafficking of women.''
    Let me just hope that my colleagues, especially on this 
Commission, will begin to look at the nexus between the ``one 
child per couple policy'' and this gendercide and the issue of 
trafficking.
    When there is such a dearth of women, of girls who are of 
marriageable age, the men will begin looking somewhere else. We 
now hear increasing stories of slave wives, where there will be 
one wife for several men. The pressure will only increase as 
this lack of girls or women goes through the demographic system 
in China. You will see increasing pressure, if you will, for 
trafficked girls from all over the world, especially from 
neighboring countries.
    Let me also point out that there is a very serious impact 
to women themselves that also creates pressure for trafficking. 
That is, as a direct result of the one child policy, it is 
estimated that female suicides are increasing, five times the 
average of any other country in the world. About 500 women 
commit suicide in China each and every day. Not per week, not 
per month, but per day. That is a very frightening statistic, 
but it also creates a demand for more trafficked women.
    Another important issue that I would like to spend just a 
moment on is the issue of China's contravention of the Refugee 
Convention as it relates to North Korean refugees, who make it 
across the border line only to be trafficked. Last October, I 
chaired a hearing on the horrific problem, along with my friend 
and colleague Mr. Leach, of North Koreans who are trafficked in 
China. Mrs. Cha Syeong Sook told us how the food distribution 
center in P'yongyang stopped distributing food at the end of 
June 1995.
    In October 1997, she jumped into the Tumen River to find 
her daughter, who had gone to China looking for food. Much 
later, she found out, all Chinese living close to the border 
were involved in human trafficking. They bought and sold North 
Korean girls, with the help of North Koreans. Mrs. Cha was 
hired by a man in Hwa Ryong city, along with several other 
North Korean women who were regularly raped. Another man bought 
her daughter for about $400, and they worked for him as 
servants in his home. They escaped again, but were eventually 
kidnapped by human traffickers two months later.
    Eventually, Mrs. Cha and her daughter were sent by the 
Chinese police to the North Korean detention center, where she 
found out that her second daughter had been trafficked. Mrs. 
Cha and her three children finally found their way to South 
Korea in a long, arduous journey. But they are just the tip of 
the iceberg of those who escape the perils of North Korea, only 
to find themselves victims of trafficking once they make it 
inside the borders of the People's Republic of China.
    Mr. Chairman, again, I ask that my full statement be made a 
part of the record. But I really hope we begin to focus renewed 
attention on China as it relates to trafficking. They are now, 
as you pointed out correctly, a Tier 2 Watch List country. I 
happen to believe, based on the overwhelming amount of 
evidence, just as they are considered countries of particular 
concern because of their ongoing and egregious human rights 
abuses vis-a-vis religious freedom, when it comes to 
trafficking they have done far too little to effectuate the 
release, the protection, and the prosecution of those who 
traffic.
    The number of traffic cases where prosecution has been 
forthcoming, and as the Ambassador I think will point out, we 
do not know how many are actually convicted. We get arrest 
numbers. We get the number of people who are apprehended, we do 
not get the number of people who go to jail for trafficking 
individuals. So, that is another, I think, very notable missing 
element in their reporting and their providing us data on what 
they are doing to combat this terrible crime.
    So, Mr. Chairman, I think this hearing is very timely. But 
I urge you, I urge this Commission, to look at the nexus again 
between the one child policy, the dearth of girls, girl babies, 
girl children, and this ballooning problem of human trafficking 
in the PRC.
    I thank you.
    [The prepared statement of Representative Smith appears in 
the appendix.]
    Chairman Hagel. Congressman Smith, thank you very, very 
much.
    We have been joined by another of your colleagues, 
Congressman Levin. Before you leave, Congressman Smith, let me 
ask any of the Members of the Commission if they would wish to 
address any point you have made.
    Congressman Leach?
    Representative Leach. I just would like to observe that Mr. 
Smith has gone to Washington, stayed, and done a remarkable 
job.
    Representative Smith. Thanks, Jim.
    Chairman Hagel. Mr. Smith, thank you very much.
    Representative Smith. Thank you very much, Mr. Chairman.
    Chairman Hagel. Ambassador Miller, thank you. Ambassador 
Miller, welcome. We are very pleased you are here and look 
forward to your testimony.

   STATEMENT OF HON. JOHN R. MILLER, AMBASSADOR-AT-LARGE AND 
DIRECTOR, OFFICE TO MONITOR AND COMBAT TRAFFICKING IN PERSONS, 
U.S. DEPARTMENT OF STATE; ACCOMPANIED BY MARK B. TAYLOR, SENIOR 
COORDINATOR, REPORTS, OFFICE TO MONITOR AND COMBAT TRAFFICKING 
      IN PERSONS, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Miller. Well, Chairman Hagel, Deputy Secretary Law, my 
former colleagues, Congressmen Leach and Levin, it is good to 
be here with you today. I appreciate your addressing the 
subject of what we euphemistically call trafficking in persons 
in China. I say ``euphemistically,'' because we use that phrase 
all over the world, but of course, we are talking about the 
slave trade.
    If you have no objections, I have a formal statement that I 
would like entered in the record.
    Chairman Hagel. It will be included in the record.
    Thank you.
    Mr. Miller. You have many distinguished witnesses today. 
Congressman Smith, a leader on this issue, has already 
testified. You are going to hear from Roger Plant of the ILO, 
with whom we have worked in China, and Wenchi Yu Perkins of 
Vital Voices. We have also worked with Abraham Lee, who has 
been on the ground in China and South Korea, and can bring some 
first-hand observations. So, I will not take long.
    I have traveled all over the world on this issue. I have 
been to China. My colleague here, Mark Taylor, head of our 
Reports section, was in China for several days just a month 
ago.
    Of course, we are talking about a worldwide challenge. 
Slavery affects every country in the world, as far as I am 
concerned, including the United States of America. In the world 
context, we are looking at, our government estimates, up to 
800,000 men, women and children trafficked across international 
borders every year. That is just across international borders. 
That is not counting internal trafficking.
    There are many categories of trafficking around the world. 
The largest category probably is sex slavery. The second-
largest category is probably domestic servitude slavery. Then 
you have factory slavery, which Deputy Secretary Law is 
familiar with, farm slavery, and child soldier slavery, even 
child camel jockey slavery in parts of the Middle East.
    You have here a worldwide challenge that affects not only 
human rights and the dignity of individuals, but it is a public 
health challenge, and a national security challenge because of 
the link to organized crime.
    Now, turning to China, I think before even getting into the 
limited information we have on China, one has to start out with 
a qualification. Because of the lack of openness in China, we 
do not have as much information. We have not talked with the 
victims who we are able to talk with in many other countries. 
Generally, when I visit a country I always talk with victims. 
In China, I was there for a couple of days. I did not talk with 
victims. My colleague, Mr. Taylor, made an effort in one part 
of China to talk with victims, but it is not easy to do. China 
does not have a lot of NGOs working on this issue. There is an 
All China Women's Federation, a government NGO, but it is 
difficult for NGOs that are independent or from abroad to work 
on this issue. You have discussed the Internet, I believe, 
Congressman Leach, at a recent hearing. Our State Department 
Web site, I am told by our Embassy, that has a trafficking 
page, is not available in China. So, anything I say has to be 
taken with those considerations in mind.
    From what we do know, there certainly is a significant 
amount of sexual exploitation in China, a significant amount of 
forced labor, indentured servitude. There is the forced 
marriage issue that Congressman Smith referred to that 
certainly is accentuated by the one child policy. There is the 
issue of the North Korean refugees who come into China in large 
numbers, and many of them end up being trafficked into sexual 
exploitation, labor, or marriage. And there is an issue that 
does not often get talked about when you look at trafficking, 
and that is the trafficking of Chinese abroad to other 
countries. When we look at this human slavery issue, we like to 
look at it in both directions.
    Certainly there have been cases in the United States where 
``snakeheads'' deceived and took young Chinese who ended up in 
slavery in the United States. There was one big case in the New 
York area years ago in garment factories, I believe, and there 
have been other cases. When I visit other countries, for 
example, Malaysia, this issue comes up, the trafficking of 
Chinese citizens abroad. So, China is a source country as well. 
Many Chinese citizens suffer abroad because of trafficking. It 
is an issue I tried to raise with Chinese officials.
    Well, let us look at some of the positives, and then look 
at some of the things that need to be done. I think that you do 
have some awareness training going on. The ILO, whose 
representative is going to testify later, has been involved in 
this, with our support. You do have some training of officials 
going on. You do have a government NGO, the All-China Women's 
Federation, that appears, based on my visits, to have an 
understanding of the trafficking issue. You certainly have 
scholars in China with whom I met that understand the 
trafficking issue, and you have officials now talking more 
about the trafficking issue. I have engaged in dialogues in 
Washington, D.C., as well as in China, on this issue.
    But here are some of the challenges. I think China needs to 
improve its anti-trafficking in persons law. The law really 
does not cover forced labor, and it is very narrowly defined in 
terms of sexual exploitation. I understand that there is an 
effort under way to draft such a law, and clearly that will 
help. There need to be shelters in places such as Yunnan 
province, where there are a significant number of Burmese 
trafficking victims. There needs to be openness about 
statistics. Congressman Smith referred to the large number of 
prosecutions and arrests that are reported. We do not know the 
number of convictions, and more openness would be helpful in 
this regard.
    I think China needs to use its embassies abroad more. 
Visits I have paid to countries such as Malaysia tell me that 
China does not do as much as some of its South Asian neighbors 
do in terms of using their embassies abroad to provide help to 
victims who originate in China.
    I think that another thing that must be done is to stop 
punishing the victims. There is evidence that victims who are 
found in China are punished through fines. Now, in the course 
of conversations in China, I had one official from the Ministry 
of Public Security tell me that this policy had been stopped, 
but then a day or two later we got contrary information, that 
it was still being carried on and many victims were still being 
punished.
    I think China has to start looking at trafficking victims 
who originate in North Korea as trafficking victims and not as 
economic migrants. There is a difference. I think there are 
enough reports to show that this is a very significant problem.
    I think it would help also if we look at the big picture. 
This does relate to the issue of openness. I will come back to 
where I started out.
    If China becomes open to NGOs, if China becomes open to 
people from abroad meeting with its victims, if China becomes 
open with its statistics, if China exchanges or encourages the 
exchange of information on modern-day slavery, not just 
government official to government official, but citizen to 
citizen, NGO to NGO, then I think we will see some progress.
    This modern-day slavery challenge is because of efforts 
like those of this Commission, starting to receive attention 
the world over. Every year for the last couple of years, we see 
more and more media attention to this issue. As people become 
aware of this issue, whether in China, the United States, or 
everywhere, they say, ``What? Slavery in the 21st century? Let 
us do something about it.'' In the last couple of years, in 
part through the efforts of the Congress, the efforts of 
President Bush, last year we saw about 3,000 convictions of 
traffickers worldwide; several years ago it was in the 
hundreds.
    Last year, we saw several hundred shelters around the world 
set up. Before, there were just a few score. Last year, 39 
countries passed anti-trafficking in persons laws. It was just 
a handful when this Congress passed the law back in 2000.
    So, efforts like this hearing you are holding today can 
bring about progress. The more we spotlight this issue, the 
more people all over the world want to do something to abolish 
slavery.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Miller appears in the 
appendix.]
    Chairman Hagel. Ambassador Miller, thank you very much.
    Let me ask my colleagues if it would be appropriate, maybe 
we would take a round of five minutes each on questions, if you 
can stay.
    Mr. Miller. Mr. Chairman, if you would allow me to have Mr. 
Taylor, my reports officer, join me.
    Chairman Hagel. Certainly.
    Mr. Miller. He having just come back from China, could help 
me with the latest information. I would appreciate it.
    Chairman Hagel. Welcome, Mr. Taylor.
    Let me begin. Again, thank you, Ambassador Miller, for your 
good work. Please extend our appreciation to your colleagues as 
well.
    You have covered, in general terms, a good deal of the 
areas of greatest concern, and in particular you mentioned 
strengthening the laws against forced labor in China. Then you 
mentioned some of the things that you felt needed to be done, 
that could be done in fact, to assist victims. You talked about 
shelters, better statistics, use of Chinese embassies abroad to 
help the victims, and stopping punishment of victims was one of 
your last points.
    Let me ask this question. In light of what you have just 
said, do you believe that we have a good idea of the scope of 
the problem, of the trafficking problem in China?
    Mr. Miller. Not good enough. I would have said, two or 
three years ago, Senator, that we did not have a good scope of 
the problem in most of the world. But we are learning more and 
more about it. As you can tell from our report that the 
Secretary puts out every June, we now have more and more 
information. But I would say no. As I said at the beginning, 
with regard to China, there is much more we would like to know.
    Chairman Hagel. In your opinion, what prevents the Chinese 
Government from putting more law enforcement resources into the 
issue of trafficking, to implement and enforce their current 
laws, noting, as you have said, that there is some recognition 
of this problem. Why hasn't the Chinese Government put an 
appropriate number of law enforcement officials in this area?
    Mr. Miller. I do not have an exact answer for you, Mr. 
Chairman, because I do not know exactly how many resources they 
are putting in. I mean, it is not like I can tell you exactly 
how many dollars, and how many prosecutors, and how many police 
are involved in this effort. But I think my experience has 
been, when it comes to law enforcement in countries around the 
world, far more important than dollars is national will. If the 
people at the top want to do something and the police and 
prosecutors down the line get the message, then good things 
start to happen.
    Chairman Hagel. You mentioned the North Korean refugee 
issue as one of your last points. Focusing on the North Korea 
issue, and also all victims of trafficking in China, does the 
Chinese Government allow international NGOs in any effective 
way to address this issue and try to assist?
    Mr. Miller. Not to my knowledge. I think you will hear from 
Mr. Lee on this later. I think most of the work that is done, 
is done underground by necessity.
    Chairman Hagel. Are there any significant differences, in 
your opinion, in the ways that Hong Kong and Taiwan deal with 
these trafficking issues, as opposed to China?
    Mr. Miller. Well, Hong Kong and Taiwan, of course, are 
smaller areas. Taiwan has a serious challenge. We downgraded 
Taiwan from Tier 1 to Tier 2 last year, based on treatment of 
victims.
    The big challenge in Hong Kong--well, there are two 
challenges. They have tremendous importation of domestic 
servants, and they also have the sex industry. From what I have 
learned of Hong Kong, they seem to be handling the domestic 
servant issue pretty well. There are very few complaints that I 
was able to find in Hong Kong. With regard to sex trafficking, 
I think Hong Kong has a bigger problem than they think they 
have. They believe it is non-existent. But when I talk to 
foreign embassies in Hong Kong, one gets a different story. So, 
they can improve there, as every jurisdiction can.
    Mr. Taylor, did you want to add more on either Hong Kong or 
Taiwan?
    Mr. Taylor. Perhaps just a note on Taiwan. There appears to 
be a growing trafficking problem involving young women from the 
Chinese mainland, crossing the Taiwan Strait without 
documentation, knowing that they are breaking a migration 
statute, but falling victim to servitude upon arrival in 
Taiwan. Unfortunately, given the unique nature of cross-Strait 
relations, there is not an easy way to protect and repatriate 
them responsibly.
    As Ambassador Miller noted, we have tried to highlight this 
in the last ``Trafficking in Persons Report'' on both sides of 
the Strait, the greater responsibility that needs to be shown 
by Taiwan authorities to treat these women as true victims as 
opposed to a security threat, and also the responsibility of 
the PRC Government to accept these women back as victims and 
not punish them, fine them, and put them into a forced 
counseling session.
    Chairman Hagel. Thank you.
    Ambassador Miller, would you like to respond to anything in 
particular from Congressman Smith's testimony?
    Mr. Miller. Not at all. Nothing.
    Chairman Hagel. You would, I assume, agree with Congressman 
Smith's assessment, as he presented it?
    Mr. Miller. Yes.
    Chairman Hagel. Mr. Taylor, anything that you would like to 
add?
    Mr. Taylor. No.
    Chairman Hagel. Thank you.
    Congressman Leach.
    Representative Leach. One thing that Representative Smith 
noted was the distinction between arrests and convictions. He 
noted that he did not know what the sentences are when there 
are convictions. Do you have any sense for that?
    Mr. Miller. We have gotten information on sentences that 
indicates that when sentences are given, they are tough. You 
can get the death penalty under Chinese law for forcing a child 
under 14 into prostitution, for example. But we do not know how 
many convictions there were and how many sentences there were. 
We are seeking this information through our Embassy in Beijing. 
We hope to have this information for this coming June's report.
    Representative Leach. You noted, and I thought quite 
impressively, that some 39 countries have passed anti-
trafficking laws in recent years. Are there some relevant 
models, both of law and of enforcement, that are happening 
elsewhere that might apply to China?
    Mr. Miller. There are many countries that have passed these 
laws. In fact, there were almost 40 countries in 2004 that 
passed anti-trafficking legislation.
    I would hesitate to cite one model. For example, we have a 
model law that we distribute to countries that the Department 
of Justice has prepared. But I always feel that a country has 
its own specific problems, so models are fine, but that does 
not mean you can--for example, Benin has just gone through an 
incredibly good process in drafting a law in Africa. But I do 
not know that you can take a law from Benin and just drop it 
into China. It might be worth looking at, but I would not 
recommend just adopting it because each country has particular 
trafficking problems.
    Representative Leach. Congressman Smith laid out the 
extraordinary dimension of the female versus male demographics 
in China, with the obvious implication that this will provide 
incentives to deepen, rather than lessen, the problem.
    Does our government have any suggestions to China on this 
front, and are you making them?
    Mr. Miller. Well, I do not know if we have had official 
demarches of this nature. That is a little out of my scope. I 
did raise the issue when I was in Beijing, as it related to the 
increasing threat of trafficking. I have seen figures 
suggesting that the male-female ratio will be approaching a 
13:10 ratio at some point. This has serious consequences. But I 
cannot tell you. I could find out, if you want. I cannot tell 
you exactly what official position the United States has taken 
with China on this broad issue.
    Representative Leach. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Hagel. Secretary Law.
    Mr. Law. Thank you. As I mentioned in my opening statement, 
the Department of Labor has partnered constructively with the 
Chinese Government on programs and projects to improve worker 
protections in that country. In those instances, we found the 
Chinese Government to be solicitous of our help, wanting our 
input, and being relatively transparent on those issues.
    I was interested to get a sense, Ambassador Miller, of what 
deliverables you have sought from the Chinese Government in 
this particular area, and the extent to which you feel the 
Chinese Government has been responsive on those issues; and to 
the extent they have not been forthcoming, where you think the 
resistance lies.
    Mr. Miller. Well, when we were in China just a month or two 
ago, we laid out just about every issue I raised in my 
statement. We laid out the issue of statistics, we laid out the 
issue of convictions, we laid out the issue of the North 
Koreans and economic migrants, we laid out the issue of the 
punishing of victims. What else did we lay out? That is pretty 
much it. I also laid out the issue of the Chinese Government 
using its embassies abroad to protect its own citizens.
    So we are looking for progress on all of these issues. We 
are approaching the time of year when we get information back 
from our embassies and from foreign governments so we will see 
what has happened, and what is happening.
    In terms of deliverables, at the time of my trip, the only 
deliverable I recall was the statement by an official at a 
meeting that they were going to, or had, stopped levying fines 
on victims. That is about it, Mark?
    Mr. Taylor. That, and looking a little more closely at the 
law enforcement threat on the Burma border and trying to expand 
the cooperation with its neighbors. We understand cooperation 
with Vietnam is particularly strong and growing as the threat 
of Vietnamese being sold as wives is being taken seriously.
    Mr. Law. But was your sense that the response from the 
Chinese Government indicated that this was a priority to them, 
that there was some urgency attached to it, or was it simply 
kind of a polite response to your concerns and not much more?
    Mr. Miller. It depended on who we met with. It varied. Some 
were of the former category and some were of the latter 
category. I think it is fair to say that many of the responses 
involved a defensiveness. Of course, that is not unique to 
China. I get that defensiveness in other countries. I certainly 
tried to emphasize, this is the problem we all face. We face 
this in the United States. It is a worldwide problem. We are 
asking for your cooperation. A lot of attention is paid to 
rankings, but it is a tool to focus on the issue and help free 
victims and throw traffickers in jail.
    Mr. Law. All right.
    One of the key issues that you mentioned in your statement 
is the importance of appropriately classifying different 
groups. For example, among those who are coming across the 
border from North Korea to China, some have been classified as 
being economic migrants, while others in that same group may be 
victims of human trafficking because of the element of 
deception or coercion that is involved. To your knowledge, is 
there an awareness within the Chinese Government that what we 
are seeing in North Korea is not merely people sneaking across 
the border of their own volition or being smuggled, but that 
there is actually a coercive element to it that needs to be 
addressed?
    Mr. Miller. I did not get any sense of awareness on that 
issue from Chinese officials. I did find some interest in the 
issue from the All-China Women's Federation, but beyond that, I 
do not recall any response. I raised this at just about every 
meeting I had.
    I did want to add one other issue that comes up in China 
and elsewhere. When we talk about statistics, there is the 
problem of getting convictions, but also, when you look at 
these thousand arrests and prosecutions, one of the reasons 
that we need better statistics is it is hard to determine 
whether these are all trafficking arrests and prosecutions or 
whether, in China, as in many other countries, trafficking and 
smuggling are conflated.
    Mr. Law. Right. The terms are confused, but they are 
actually quite distinct because in the trafficking area there 
is the element of coercion or intimidation or deception. Right.
    Mr. Miller. Our office is concerned about slavery and 
trafficking.
    Mr. Law. Right.
    Mr. Miller. Sometimes there is confusion and countries will 
submit statistics--I do not know if this is the case in China--
that show large numbers, and then when we look more closely, it 
turns out to be smuggling arrests, prosecutions, and 
convictions as opposed to slavery cases.
    Mr. Law. Yes. One last, quick question. This is a subject 
that I think, Mr. Ambassador, you and I are both familiar with 
in our dealings with another country.
    When we talk about the issue of law enforcement, 
particularly when it has to do with purely internal human 
trafficking, very often the response we get from the national 
government is that this is a local law enforcement matter and 
something that the national government has no role in. It is as 
if they all discovered the 10th amendment to the U.S. 
Constitution. But, in fact, would you say that, because of the 
complicity of local law enforcement in some of these human 
trafficking and forced labor cases, and because there are often 
local cultural and economic pressures that essentially tolerate 
the presence of trafficking and forced labor, you really have 
to have a national commitment to law enforcement, even if the 
primary agents of that law enforcement are at the local level? 
Would you say that is true?
    Mr. Miller. Absolutely. I think, to some extent, China has 
recognized this point, as in this attention to a national law 
and a national plan. To that extent, to the extent they 
understand it is a problem, I think they understand that it is 
a national problem.
    Mr. Taylor. If I could just add, in China it seems that the 
greatest priority is on internal trafficking, and there does 
seem to be considerable and expanding concern about the issue 
of young girls, particularly, being trafficked from places like 
Yunnan province up to the north to fill that gender gap that 
has been discussed already. That is where the law enforcement 
resources seem to be applied. In that sense, there is more talk 
and more willingness to discuss that, ironically, even though 
it is an internal matter, but less focus and attention on the 
external coming into China.
    Mr. Miller. Or going out. Yes.
    Mr. Law. Thank you so much for all your hard work and 
leadership on this issue.
    Mr. Miller. Thank you for your work on this trafficking 
issue in China, India, and other places.
    Chairman Hagel. Congressman Levin?
    Representative Levin. Thank you.
    Welcome. Nice to see you again.
    Mr. Miller. Thank you.
    Representative Levin. Just a quick follow-up question. To 
the extent this is a matter of legitimate international 
concern, and I think it clearly is--and this relates, I 
suppose, to virtually every issue vis-a-vis China and the 
United States, or China and other countries--what is our 
strategy for follow-through? What are the possible avenues?
    The Secretary mentioned that in China, and others also 
referred to this point, laws on the books do not mean very 
much. I do not want to use the word ``leverage,'' perhaps, but 
how do we have an impact?
    Mr. Miller. All right. This is a question I ask myself 
every day. I think there are a number of ways. Certainly we try 
to directly engage the officials of the government in question. 
I have had discussions with Chinese Government officials here, 
I had discussions in Beijing. In most countries, but not in 
China, we engage with NGOs. We encourage NGOs.
    Representative Levin. With China?
    Mr. Miller. Yes, with China. But I would say, in addition, 
it is important to know the difference. In many countries, when 
I visit a country, I speak out in the news media. There was a 
press conference in China that the U.S. Embassy organized, and 
there was coverage in Reuters, but I do not think it got into 
the Chinese newspapers.
    Now, there is this report, and I do think countries are 
concerned, and China--I do believe China is concerned--about 
how they are evaluated in this report. When this report comes 
out, countries' governments may criticize the ratings, but I 
think sometimes governments may be pleased or embarrassed by 
the ratings, as the case may be. Certainly Chinese officials 
mention this report. I am trying to remember the meeting that 
we were at where the first 40 minutes was taken up with a 
denunciation of the report by the Chinese official across from 
me, explaining why the report was wrong. So, this is another 
means of engagement. Have I left out anything?
    Mr. Taylor. Just a couple of other manifestations of the 
dialogue, which is relatively young, on this issue. But there 
is a Global Issues Forum.
    Mr. Miller. Yes. That is where I engaged in a dialogue on 
this issue. Last June or July, they came to Washington, D.C. 
There were many issues discussed, and this was one.
    Mr. Taylor. Then there is the law enforcement dialogue that 
is chaired by the Assistant Secretary for International 
Narcotics and Law Enforcement Affairs, and we also participate 
in that.
    Mr. Miller. Yes.
    Representative Levin. All right. Thank you.
    Chairman Hagel. Ambassador Miller, I have one question. It 
is regarding the U.N. Protocols on Trafficking and Migrant 
Smuggling. This is the question: why has China not signed those 
two U.N. protocols?
    Mr. Miller. I raised that issue and the answer was, ``We 
are considering it.'' The answer was, ``You considered it for a 
long time, we are considering it for a long time.'' I 
encouraged them to sign the U.N. Protocol. I would add that for 
whoever signs it, the U.N. Protocol is only as good as the will 
exercised by the government that signs it.
    Chairman Hagel. Thank you.
    Any other questions, Mr. Secretary?
    Mr. Law. No.
    Chairman Hagel. Congressman Leach?
    Representative Leach. No.
    Chairman Hagel. Congressman Levin?
    Representative Levin. No.
    Chairman Hagel. Thank you.
    Ambassador Miller, thank you.
    Mr. Miller. Thank you.
    Chairman Hagel. Mr. Taylor, thank you.
    Mr. Taylor. Thank you.
    Chairman Hagel. If the next panel would come forward. Thank 
you.
    Welcome. Thank you for your time and your presentations. As 
you know, we have showered great accolades and recognition on 
each of you in our earlier introduction, so I will dispense 
with that and ask each of you to present your testimony. Then, 
if you can stay, we would very much like to engage in some 
questions.
    So, Mr. Plant, we will begin with you. Thank you.

   STATEMENT OF ROGER PLANT, HEAD, SPECIAL ACTION PROGRAM TO 
COMBAT FORCED LABOR, INTERNATIONAL LABOR ORGANIZATION, GENEVA, 
                          SWITZERLAND

    Mr. Plant. Thank you very much, Senator Hagel, Congressmen 
Leach and Levin, and Deputy Secretary Law. It is a real honor 
and pleasure to be with you today.
    We have frequently highlighted our appreciation of the 
leadership displayed by the U.S. Government in national and 
international action against trafficking.
    I have a prepared statement. I shall leave this with you 
and I shall just add some comments.
    Chairman Hagel. Each of your statements will be included in 
full in the record. Thank you.
    Mr. Plant. I have been a frequent visitor to China since 
its government requested ILO cooperation on forced labor and 
human trafficking in 2002, the same year that the activities of 
the ILO Special Action Program to Combat Forced Labor, which I 
have been privileged to head, commenced its activities.
    To place these activities in their proper context, I would 
like to say a few words about the ILO's overall approach to 
human trafficking.
    Last year, we launched our global report, ``A Global 
Alliance Against Forced Labor,'' which gives the first 
estimates by an international organization of modern forced 
labor. A total of 12.3 million victims, of which 9.8 million 
are in Asia and 2.5 million are victims of trafficking; most 
are trafficked into commercial sexual exploitation, but at 
least one-third are trafficked into other forms of economic 
exploitation. Four out of every five cases of forced labor in 
the world today involve exploitation by private agents rather 
than by the state. Trafficking of women and children, mainly 
for sexual exploitation, is particularly serious, but men and 
boys can also be trafficked for other forms of economic 
exploitation.
    When mainly private agents exploit forced labor victims, 
the offenses of trafficking, forced labor, and modern slavery 
are closely linked. As we heard from Deputy Secretary Law, it 
is precisely the coercion, usually at the end of the 
trafficking cycle, together with the deception that 
distinguishes the crime of trafficking from the crime of 
smuggling.
    The ILO's mandate covers labor rights, the promotion of 
employment, the promotion of decent work. This, in its 
tripartite structure of governments, business employers, and 
workers and trade unions, gives it a unique role in action 
against human trafficking.
    We involve labor as well as business actors, labor 
institutions both inside and outside government, blending law 
enforcement, prevention, and rehabilitation. Our approach 
combines activities in sender and destination countries for 
trafficking victims, which is a key aspect of our approach in 
China.
    Now, Ambassador John Miller has already brought your 
attention to the need to focus on the trafficking and 
exploitation to which Chinese people can be exposed abroad. 
Indeed, this has been quite a large aspect of our own 
cooperation with China, so I will dwell to some extent on it.
    As the U.S. State Department's report has recognized, and 
as all speakers have recognized today, there are signs of 
China's commitment to action against trafficking. We have seen 
some of the statistics on several thousand arrests and 
prosecutions. We know of 
information campaigns on the dangers of trafficking, and of 
increased international cooperation. But a drawback is that 
penal legislation covers only the trafficking of women and 
children.
    Briefly, I would like to comment now on ILO activities. We 
began our activities in China in Yunnan province of China 
several years ago. This was part of a regional effort in the 
greater Mekong sub-region to prevent the trafficking of women 
and children. A project to prevent trafficking in girls and 
young women, focusing in large part on labor exploitation, got 
under way in 2004, implemented with the All-China Women's 
Federation as the main partner. This addresses trafficking 
within China itself, focusing on three sender provinces and two 
destination provinces in China.
    Since 2002, the ILO, largely under the aegis of our Special 
Action Program on Forced Labor, has cooperated with China over 
forced labor concerns, including trafficking. The government 
first sought assistance on broader forced labor concerns to 
prepare the ground for anticipated eventual ratification of the 
ILO's two Conventions on Forced Labor.
    The main focus of this cooperation has been on reforms to 
the Reeducation Through Labor system, through technical 
seminars in China, and two study tours overseas, the first in 
2003, the next in early 2005. An aim of this cooperation has 
been to strengthen a network of officials from key government 
agencies to advance the process of law and policy reform. It 
began with a focus on Reeducation Through Labor, but since 
2004, trafficking has also been an important part of this 
cooperation.
    Since September 2004, we have been implementing a U.S.-
funded project on forced labor and trafficking, the role of 
labor institutions in law enforcement, and international 
cooperation in China. This project has activities in both China 
and several European destination countries. It includes policy 
advice, awareness raising, and capacity building at both 
central and provincial levels, activities with employers and 
workers' organizations against trafficking, and research and 
awareness raising in the destination countries.
    In China, activities have concentrated on Fujian, Zhejiang, 
and Jilin provinces, which, as I am sure you are aware, have 
been the main sender provinces for Chinese workers going 
overseas. More recently, from the rust belt of northeastern 
China, Jilin, Heilongjiang, and Liaoning provinces, but 
increasingly so from Fujian and Zhejiang provinces in the 
southeast.
    Our project has stimulated important debates on law and 
policy, notably the difference between existing Chinese 
approaches to trafficking and those of the Palermo Trafficking 
Protocol. It has enabled a review of national legislation on 
forced labor, trafficking and smuggling, as well as comparative 
studies.
    In April 2005, in a workshop that I attended in Beijing, we 
brought key officials together to compare approaches and to 
seek to harmonize Chinese law and Chinese policy with emerging 
international standards.
    I think you understand the importance of this, having heard 
the statements of the previous witnesses, the real importance 
of having a Chinese understanding of law and policy on 
trafficking that is consistent with the emerging international 
law.
    Then we moved down to the provincial level. Activities 
involved training law enforcement officials from both public 
security and labor bureaus, together with recruitment agencies, 
tourism bureaus, labor lawyers, and others. In the second of 
these activities, we also involved law enforcement agents and 
visa officials from France and the United Kingdom as among the 
principal destination countries.
    Our main activities to date have been, as I said, in Jilin 
province in the northeast, and Fujian and Zhejiang provinces in 
the southeast. My written statement gives far more details 
about what we have been doing, why we have been doing it, and 
what we have achieved, so I am not going to go into more detail 
in this oral statement.
    Concurrently, we have been carrying out a significant 
research program in the European destination countries. 
Generally, as we have heard from Ambassador Miller, there has 
been growing awareness that Chinese migrants can be subject to 
highly abusive conditions of work and transportation amounting 
to forced labor overseas, but there has been very little 
systematic research.
    Tragic events, like the deaths of 20 Chinese cockle pickers 
in the United Kingdom, early in 2004 served to bring some 
attention to this issue. For example, a recent report on forced 
labor issues in the United States estimated that half of the 
victims of forced labor today are ethnic Chinese.
    So to fill this gap, we first issued an overview paper, 
which I could leave with you for the record here, then a more 
rigorous case study in France, now being translated into 
English. I am afraid that today I can only give you the French 
version of this study. It covers the whole cycle of recruitment 
and transport, as well as the living and working conditions 
experienced in France. It examines the complex links between 
the snakeheads and the employers in the Chinese ethnic 
enclaves, high indebtedness, together with the reprisals or 
threats against the migrants or family members in China as the 
key factors behind this severe labor exploitation. It can take 
between 2 and 10 years for the average Chinese clandestine 
migrant to pay off this debt, so it is a severe example of 
modern debt bondage.
    This study had immense media coverage in France, and we are 
now following up with similar research in Italy and the United 
Kingdom, where some similar problems have already been 
identified. Our Chinese partners see such documentation as an 
essential ingredient of future prevention campaigns in China 
itself, and a film of the Chinese experience in France has 
recently been completed.
    What about the effectiveness of what we are doing? I have 
been to China five times, myself. Our program officer has been 
spending far more time there. Just today, we are beginning one 
of two training workshops with Chinese employers through the 
Chinese Enterprise Confederation, the first in Beijing, which 
starts tomorrow, and the second in Hangzhou, that is a very 
important part of our cooperation.
    But I have certainly detected a concern to grapple with the 
problems. There are outstanding problems, some of them severe. 
We have heard of a number of these from previous witnesses 
today.
    China is a labor-abundant country, with very high 
unemployment, up to 5 million people in a province like Jilin, 
and some local governments are actively encouraging immigration 
as a solution to local unemployment problems.
    We know that internal migrants can also be vulnerable to 
trafficking. There are some signs that China is taking steps to 
respond to these challenges. Pilot reforms to the hukou 
registration system, which are now being tested in certain 
cities, permit equal access to employment for migrant workers.
    I am glad that in 2005 China ratified the ILO's 
Discrimination--Employment and Occupation--Convention, which 
will provide a further tool to seek improvement of these 
conditions.
    Abduction and sale of women for forced marriage, and of 
children for adoption, remain serious problems in China. 
Continued efforts are needed to clamp down on these practices.
    Reform to the Reeducation Through Labor system has been 
incorporated in the Five-Year Legislation Plan, and a draft law 
regarding an alternative system of community correction has 
been submitted to the National People's Congress. There are 
different approaches to this in China. It is certainly proving 
a difficult issue, and we know that addressing it is taking 
time.
    To conclude, approaches to Chinese population movements 
must be realistic. At a recent European meeting on clandestine 
and illegal Chinese migration in Europe, the emphasis was 
mainly on border control, fraud and visa abuse, and the use of 
technologies such as biometrics for identifying and stamping 
out fraudulent practices. Yes, this is very important, but we 
also have to look at prevention. We have to understand that 
there is, in many countries, an active demand for Chinese 
workers. The Chinese may pay an absolute fortune to the 
snakeheads, landing themselves in very severe debts, and 
potential reprisals against themselves and their families. They 
may not even look at the possibilities of legal migration.
    So, this is why, at our awareness raising training program 
in Fujian, particularly the U.K. people there insisted that 
there must be more understanding of how people can migrate 
legally in order to take the ground away from the snakeheads. 
So we argue that it is vital to promote safe and legal 
migration, and sometimes it can be fruitless to make efforts to 
persuade people not to move.
    So what are we doing now? The first stage of our project on 
law enforcement, for which we gratefully acknowledge the 
support of the U.S. State Department, is coming to an end. But 
we are planning now a follow-up phase. This will have 
activities at both national and provincial levels.
    The measures to help strengthen the law and policy 
framework, which you have all seen as so important, will focus 
on the forced labor dimensions and on trafficking for labor 
exploitation. Other aspects will focus on the training of 
provincial government officials on labor migration management, 
including the management of private recruitment agencies. Time 
and time again, we have seen that the existence of illegal 
employment agencies can be a large part of the problem.
    We now plan to target more intensively the sender provinces 
of Fujian and Zhejiang, with an awareness raising program 
drawing on diverse tools, including hot-lines, local media, Web 
sites of recruitment agencies, and this will focus in 
particular on identified regions at high risk for potential 
migrants.
    Finally, the dialogue between China and the destination 
countries has to focus on the means to prevent, as well as to 
combat, human trafficking. As ILO, we see a need to involve 
business and labor actors in this international cooperation, so 
we now have plans for a fairly significant meeting, which is 
bringing together labor institutions and authorities, law 
enforcement agencies, and academic experts from both sides, the 
destination countries, and also China, and we very much hope 
that such an initiative will also be of interest to the United 
States.
    Thank you very much for your attention.
    [The prepared statement of Mr. Plant appears in the 
appendix.]
    Chairman Hagel. Mr. Plant, thank you. I understand you flew 
in from Geneva for this hearing, so we are particularly 
grateful for your efforts to get here.
    Mr. Plant. Thank you.
    Chairman Hagel. Thank you very much.
    Ms. Perkins.

STATEMENT OF WENCHI YU PERKINS, DIRECTOR, ANTI-TRAFFICKING AND 
       HUMAN RIGHTS PROGRAM, VITAL VOICES, WASHINGTON, DC

    Ms. Perkins. Thank you. Senator Hagel, Representatives 
Leach, Levin, and also Deputy Secretary Law, Ambassador Miller, 
thank you for having today's hearing focusing on human 
trafficking in China. On behalf of Vital Voices Global 
Partnership, I just want to thank you again for focusing on 
this issue. Human trafficking, as Ambassador Miller said, is 
one of the most egregious violations of human rights in the 
21st century, and no country is immune, including China.
    Vital Voices has been at the forefront of anti-trafficking 
efforts since the mid-1990s. Our leadership was instrumental in 
the creation of the U.N. Anti-Trafficking Protocol and the 
passage of the U.S. anti-trafficking legislation in 2000.
    Today, through partnerships with many outstanding NGO 
leaders, we continue to make positive impacts in East Asia by 
promoting government and civil society collaboration to counter 
trafficking.
    I am here to share with you my personal experience 
encountering trafficking victims from the People's Republic of 
China, and also information that my organization has collected 
from our partners in China. My perspectives will be focused on 
women and children.
    In my written statement, I have detailed two stories of 
trafficking victims whom I encountered in Chicago, Illinois. 
One of them was a woman who considered herself as the worst 
class in Chinese society, and has no future in China. She was 
enticed by a ``snakehead,'' the Chinese term for human 
smuggler, to come to the United States. Unfortunately, she was 
exploited and forced to provide sexual services in a massage 
parlor. Threatened by her boss for deportation back to China 
and terrified that her family in China would be harmed because 
she would not be able to pay off her debts for coming into the 
United States, she was forced to continue working in exploited 
conditions.
    The other story is of a teenaged boy, desperate to leave 
China from Fujian province because he was forced to stop formal 
education when he was 13 as a result of his family's violating 
the one child policy. He was lured into coming to the United 
States, was told that he could continue his education and have 
a better life. Unfortunately, he was exploited in the process 
and forced to work illegally as a forced child laborer in this 
country. Every time he talked to his mother, his mother 
mentioned that the trafficker who had arranged for his travel 
was harassing her on a daily basis. Therefore he was desperate 
to make money to pay off the debts so his mother could avoid 
continued harassment from the snakehead.
    I am sharing with you these two stories because they are 
two examples of many more Chinese victims of trafficking in the 
United States, people who have no other options, and who have 
been taken advantage of and grossly exploited. They are either 
in debt bondage and fear for their family's safety back home, 
or are terrified of the snakeheads, who are often linked to 
organized crime syndicates.
    I have witnessed a child meticulously saving every single 
dollar she was given by the U.S. Immigration authorities and 
sending them back home to her mother, because she said, ``Every 
dollar can help my mother pay off the debts to the snakeheads 
so she would not be threatened by the snakeheads any more.''
    Most of the trafficking victims, many of them minors, are 
manipulated by the traffickers through the threat of 
deportation. They fear deportation back to China because the 
government punishes those who leave the country without 
government permission by putting them in jail. The length of 
the jail time depends on how much money they can raise for a 
bribe.
    I was told by a child that those deported back to China 
without money for a bribe are stripped of clothes and beaten in 
jail. The desperation, exploitation, and inability to leave the 
situation makes those Chinese people, many of them women and 
minors, victims of human trafficking. Chinese victims are not 
only shipped and traded from China to more affluent countries 
for exploitation, many of them are also trafficked internally 
for forced marriage or sexual and labor exploitation, about 
which Congressman Smith, Ambassador Miller, and also Mr. Plant 
have stated. Within China, women are abducted and taken to 
rural areas for purchase by older men or by those who are of a 
low position in society and have difficulty finding a willing 
partner. This practice is tolerated in some less-
developed areas because some Chinese even think that forced 
marriage is a way to prevent rape and sexual assault, since it 
assures that the sexual needs of these men are being met. It is 
also believed that the recent increase of trafficking for 
forced marriage is due to the imbalance in the numbers of women 
to men as a result of the one child policy.
    Another human trafficking practice within China that has 
not received enough attention is trafficking for forced labor. 
I am glad that Mr. Plant just stated this point very well in 
his statement. Migrant worker issues in China have drawn world 
attention, as the abundance of cheap Chinese labor has made the 
country the world's largest sweat shop. Seventy percent of the 
migrant workers are females under the age of 25 who move from 
rural areas to the country's more prosperous south. They were 
told that jobs in the south could help them make the minimum 
wage and they would be protected by China's labor laws. In 
reality, forced labor over time is the norm. The factories 
illegally deduct meal and dormitory fees from a worker's pay. 
Some of them are only allowed to use the bathroom twice a day. 
They are literally kept as slaves.
    China's migrant labor exploitation has been discussed 
widely, and I am grateful that the Commission has held hearings 
and roundtables on this subject before. However, human 
trafficking is more than just labor exploitation. Trafficking 
victims are in indentured servitude, debt bondage, unable to 
leave because of the potential danger they may face, or serious 
consequences that may ensue.
    Last November, a migrant woman worker passed away in a 
factory in Guangdong province after being forced to work for 24 
hours non-stop. Imagine what kind of pressure and control she 
must have faced to work herself to death. I urge the Commission 
and the State Department's Office to Monitor and Combat 
Trafficking in Persons to pay special attention to this form of 
human trafficking.
    Trafficking into China is gradually gaining more attention 
with the North Korean refugees being exploited in China. I know 
that my colleague will provide more detailed information later, 
so I will not cover this in my oral statement.
    The Chinese Government is paying attention to human 
trafficking, and actively cracks down on trafficking cases. 
Some prevention pilot projects and temporary shelters for 
trafficking victims into China do exist. However, they are 
limited to certain regions. The government effort to protect 
and rehabilitate returned trafficking victims is insufficient 
to address the problem.
    The U.S. Congress plays a vital role to help address the 
modern-day slavery from, within, and into China. In my written 
statement, I have six recommendations, and I will point out a 
few here.
    The U.S. Congress should make greater resources available 
to promote collaboration between government and NGOs in China. 
There are more than a few independent NGOs and research 
institutes in China that can complement government efforts, 
while providing professional services and making positive 
changes.
    The Chinese Government recognizes that this is a serious 
problem and that they need civil society to assist in its 
counter-trafficking work. Therefore, civil society capacity 
building and leadership training for NGO leaders is the key to 
successful government and civil society collaboration.
    The Commission should analyze the various forms of 
trafficking, especially those under-addressed issues of 
trafficking from the East Coast, or for forced labor, and 
trafficking for forced labor exploitation internally. Then the 
Congress should authorize funding to support large-scale 
awareness-raising campaigns to prevent human trafficking, 
targeting at-risk populations and areas such as Yunnan, 
Guangxi, Fujian, Hunan, Gansu, Zhejiang, and Jilin provinces.
    The Congress and the U.S. Government should call on the 
international business community to help change and prevent the 
practices of exploiting migrant labor. The business sector can 
complement the Chinese Government's and NGOs' anti-trafficking 
efforts. Many garment, toy, and other labor-intensive factories 
are contractors or subcontractors of international brands. Most 
international companies can work with their contractors in 
China to ensure that migrant workers are not exploited, and 
that employers abide by China's labor laws.
    Last, I want to thank the Commission again for bringing 
this issue to everyone's attention. Human trafficking is a 
complex issue that requires a comprehensive and multi-
stakeholder approach.
    China is the most populous country and one of the most 
powerful emerging markets in the world. We must start working 
with the government and civil society in China to address this 
growing global challenge.
    Thank you.
    [The prepared statement of Ms. Perkins appears in the 
appendix.]
    Chairman Hagel. Ms. Perkins, thank you very much.
    Mr. Lee.

    STATEMENT OF ABRAHAM LEE, DIRECTOR OF PUBLIC RELATIONS, 
               CROSSING BORDERS, COLLEGE PARK, MD

    Mr. Lee. Thank you. Senator Hagel, Congressman Leach, 
Members of the Congressional-Executive Commission on China, on 
behalf of the staff at Crossing Borders, I thank you for the 
privilege of testifying before this Commission and for the 
opportunity to give voice to the thousands of North Korean 
refugees still suffering in China. We at Crossing Borders are a 
group of Korean and Chinese Americans who feel passionately 
about the situation of North Koreans in Northeast China.
    Since 2003, we have maintained a continuing presence in the 
field and have been at the front lines of providing assistance 
and care to these refugees. It is our field team of U.S.-based 
staff and local Chinese staff, actively working along the 
border, that gives us a unique glimpse into the current 
situation in China.
    As has been widely reported, the widespread famine of the 
late 1990s created a mass exodus of North Korean refugees into 
China. Starvation drove refugees to search desperately for food 
and survival across the icy rivers and snowy mountains that 
line the North Korean/Chinese border. Nearly 10 years later, 
North Koreans still suffer from hunger and still risk 
everything to cross into China. They are in search of food, 
clothing, medicine, shelter, and possibly a better life.
    Human traffickers stand as an ominous threat to their 
freedom and well-being. In a project called Road to Refuge, we 
traced the path a refugee might take in escaping to China. 
Through the wilderness and mountains, refugees hide in ditches 
along the road to avoid being caught by traffickers, who, with 
their barking dogs, set up at look-outs along the commonly used 
path.
    As a 15-year-old, a young girl named So-Young and a friend 
crossed the river, entered into China, and immediately were 
approached by Chinese men who offered them work at 300 renminbi 
per month, approximately US $36. Thinking they were too young 
to be sold as a wife or slave, they were enticed to follow 
these men. So-Young awoke the following morning alone, her 
friend sold to a Chinese buyer. Her captors forced her to work 
until she grew taller and could be sold as well. The first 
potential buyer was a 40-year-old man in search of a wife. She 
refused, and continued to stubbornly refuse attempts to sell 
her. Knowing her protests would soon go ignored and result in 
her forced sale to a Chinese man, she enlisted the help of a 
deacon in a local underground church who had secretly 
ministered to her in the village. She lived three years as a 
refugee in hiding, until she was captured, repatriated to North 
Korea, and spent six months in prison.
    Escaping to China a second time, she was caught by 
traffickers again, and this time was raped by her sellers. She 
was then sold to a Chinese man, who also raped her multiple 
times before she was able to run away.
    Today, she lives in one of our shelters and faces, daily, 
the possibility of being captured again. She says, ``There are 
many people coming out of North Korea, but they do not have 
anywhere to go, and no other choice but to go that route into 
China.''
    Unfortunately, stories like hers are all too common. As 
long as the Chinese Government does little to fight human 
trafficking, women will continue to be susceptible to the 
forced sex trade to satisfy the growing number of Chinese men 
who, because of poor economic and social status, cannot find a 
wife of their own.
    Even if a refugee is able to avoid the snare of human 
traffickers, they still face the daily hostility of Chinese 
authorities and secret North Korean agents in China.
    In recent years, China has grown exponentially, 
economically, and secured a prominent place on the world stage. 
Yet, the Chinese Government continues to flagrantly disregard 
their obligations under international agreements and stand 
uncontested as they 
actively hunt down North Koreans and send them back to face 
imprisonment, torture, and possibly execution.
    Their actions jeopardize the lives of North Koreans and the 
workers who struggle valiantly to render them assistance. Last 
December, we were forced to shut down one of our shelters 
because of this kind of Chinese persecution. We were forced to 
cease helping two North Korean teenagers, and another teenager 
was captured trying to escape to South Korea, and likely has 
been repatriated back to North Korea. Our local administrator, 
a Chinese citizen facing harsh punishment from Chinese 
authorities if caught, was forced to go into hiding, leaving 
behind his family for approximately one month.
    The work of helping North Koreans is not without its 
stories of hope and success as well. We are encouraged by the 
children in our ministry who represent hope for a Nation and 
its people. Unfortunately, these stories are not as common as 
we would like. The Chinese Government must be forced to abide 
by its obligations as 
signatories to the 1951 Convention Relating to the Status of 
Refugees and its 1967 Protocol. Under the agreement, many North 
Koreans have a legitimate right to be in China, and China has 
an 
obligation to accommodate them.
    Non-governmental organizations must be granted free access 
to these refugees. Failure to do so creates an atmosphere of 
lawlessness, where human traffickers work virtually unimpeded. 
Chinese Government pressure forces humanitarian workers to work 
in secret and severely limits the scope of help we are able to 
give. There are thousands of refugees in hiding in China; only 
a small fraction are able to receive aid.
    In conclusion, I thank you again for this opportunity to 
testify before this Commission, which is in a unique position 
to shape the United States' policy toward China. We pray that, 
through the combined efforts of the United States and 
humanitarian workers from around the world, that relief would 
come to the thousands of suffering North Koreans in China.
    Thank you.
    [The prepared statement of Mr. Lee appears in the 
appendix.]
    Chairman Hagel. Mr. Lee, thank you.
    To each of you, once again, thank you for your testimony.
    Mr. Plant, let me begin with you. You noted toward the end 
of your testimony that the ILO's efforts to involve more groups 
in the trafficking issue included, I think you used the term, 
``business 
actors.''
    Could you tell this Commission a little more about how you 
are recruiting businesses, business leaders, to this effort?
    Mr. Plant. Thank you, Senator, for a very important 
question. If you do not mind, I will digress for a few seconds 
and talk more globally before coming back to China. I am glad 
to say that, at the end of January, a meeting was held in 
Athens, at which CEOs and influential business leaders signed 
themselves up to a global campaign to involve business against 
trafficking.
    We are a tripartite organization, so of course we try to 
harness employers' organizations to our efforts. I was very 
glad to attend and make an opening statement of that meeting. 
We will be having a follow-up meeting in Geneva this coming 
Saturday at which some influential business leaders will be 
trying to get 1,000 major companies to sign up to these ethical 
principles.
    Now I shall turn to China. We have had a number of 
discussions and ongoing dialogue with our principal partner, 
the Chinese Enterprise Confederation [CEC], and we agreed that 
we would host two meetings this week. I was hoping to be there, 
but was persuaded to come here and have my colleague organize 
these meetings. This will be part of our activities to make 
Chinese companies and business leaders, including those who are 
involved in the export sector, aware of the realities of what 
is forced labor, and how they can identify it and how they can 
prevent its occurrence at the enterprise level. We see this 
awareness as a key part of our overall activities to prevent 
forced labor and trafficking in China, but it is part of a 
global effort of the ILO, which has now committed itself to 
seeking the eradication of all forms of forced labor worldwide 
by 2015.
    Chairman Hagel. Thank you. We are grateful for your efforts 
to include these groups, and particularly the business groups, 
because, as you have noted, and I think most of us understand, 
that this is a group of individuals that can bring tremendous 
resources and leadership to this effort, and I suspect have 
been left out to some extent over the years. We have focused on 
governments and NGOs, primarily. So, anything I can do, or this 
Commission can do, to assist you in that effort with the 
business community, please let us know.
    Mr. Plant. Thank you very much.
    Chairman Hagel. Thank you.
    Ms. Perkins, Mr. Lee, let me ask each of you, what is your 
evaluation of the Chinese Government's relationship with NGOs 
in China, specifically in the area of trafficking?
    Ms. Perkins. Thank you, Senator Hagel. It is our 
understanding that the All China Women's Federation, 
established as a non-governmental organization, but influenced 
by the Chinese Government, provides legal assistance to victims 
of trafficking. Although they are not seen as an independent 
non-governmental organization, they do provide services 
available to trafficking victims. In addition, they partner 
with international government organizations, such as UNICEF, to 
provide all kinds of pilot projects to prevent trafficking of 
human beings, especially in Guangxi province.
    As for independent, non-governmental organizations, Vital 
Voices has several partners in China that are attached to 
academic institutes as non-governmental organizations and 
research institutes. Even though they are attached to national 
universities, their work is considered independent. Some of 
them provide legal assistance to victims of forced marriage.
    So, I would say there are creative ways to work with 
organizations and institutions such as those to promote anti-
trafficking efforts, rather than establishing the provocative 
NGOs that we are thinking about in China, which the Chinese 
authorities might see more as a challenge to their power.
    Chairman Hagel. Thank you.
    Mr. Lee.
    Mr. Lee. With regard to Chinese NGOs, I cannot speak 
intelligently on that. But with regard to the work of Crossing 
Borders and the few NGOs that are working in Northeast China to 
help North Korean refugees, I can tell you that we have no 
relationship with the Chinese Government. As a matter of fact, 
we have an antagonistic relationship in which, if we were to be 
discovered, we would likely be imprisoned and subsequently 
deported. So, all of the work that we do is clandestine in 
nature and is not public.
    Chairman Hagel. Thank you, Mr. Lee.
    Congressman Leach.
    Representative Leach. One of the dilemmas that this 
Commission has, and the U.S. Government has, is that one has 
the sense that almost anything that is critical of China is 
almost counter-productive today. In the history of human 
rights, U.S. Government advocacy has generally been a little 
bit helpful in many parts of the world. But one has the sense 
now, if a U.S. Government official comes in and says something, 
the Chinese will think the reverse. So one of the dilemmas 
becomes answering the question, ``What is the most constructive 
way to act? '' Now having said that, our American society is 
rooted in clarity of convictions, and we can never back off our 
convictions. But we also have to deal with things 
realistically. So, one of the things in foreign affairs that 
the United States does in many countries, for other reasons, 
some of which relate to corruption problems, is that we assist 
nonprofits, non-governmental organizations. Even though there 
are some sensitivities that have arisen in recent years, we 
have largely been a supporter of international organizations 
such as the ILO. So there are other techniques than simply the 
U.S. Government sponsoring a program.
    Are there institutions of Chinese governance that have 
responded positively in the last four or five years? Are there 
governmental institutions, the analogue to attorneys general, 
in provinces or local police that we ought to be assisting 
where they do things right, instead of simply pointing out 
where there are great gaps in the system? Do you know of 
anything of this nature? Ms. Perkins, perhaps you would be able 
to respond.
    Ms. Perkins. According to our partners, we have learned 
that within the Chinese central government, there used to be a 
bureau dedicated to anti-trafficking work. But as a result of 
the Chinese Government's streamlining policy, I think that 
office no longer exists. However, I read that there are 
intergovernmental agencies or a working committee working on 
anti-trafficking issues.
    I think I want to bring everyone's attention to the issue 
that the Chinese term ``trafficking'' is actually seen as 
``abduction and selling''--gui mai. The concept of trafficking, 
defined by international law, is slightly different from that 
which exists in China. I think it is very important that, while 
the Chinese Government is actively cracking down on trafficking 
cases, most of those cases are abductions and selling of human 
beings.
    The question is how to bring the national Chinese 
definition of trafficking in compliance with the international 
definition, which has a much broader definition, and also 
covers cases of trafficking for forced labor and exploitation 
of migrant workers. I think that is worth our attention.
    Representative Leach. Mr. Plant, would you care to respond?
    Mr. Plant. Thank you very much, Congressman Leach. I have 
to go all over the world, working with governments in sometimes 
difficult situations. There is no question that there can be 
sensitivities over the wider issue of forced labor, and also 
trafficking in persons. I think what Ms. Perkins has said is 
very important. Several witnesses have repeated this 
discrepancy over definitions. What I would like to say is that 
we, as the ILO, since we have engaged with the Government of 
China, have a very positive relationship with this group of 
partners in the National People's Congress, in the State 
Council, the Ministry of Labor, the Ministry of Justice, and 
the Ministry of Public Security, first at a national level, 
then, as I explained, going down to very practical cooperation 
at the provincial, and also lower levels. So, yes, there are 
some very intense discussions over concepts, but I think it is 
important to mention once again, which Ambassador Miller has 
already mentioned, that there is a draft national action plan 
against trafficking between 2005 and 2010, which is now being 
actively discussed, and it does provide for a coordinating body 
for anti-trafficking activity. It is a proposal. So, I think we 
should not underestimate the extent to which some very positive 
thinking is going on at various branches of both the national 
government and provincial governments as to how they can 
intensify action against trafficking. I think the focus has 
been almost exclusively so far on cracking down. What we are 
now working on with many counterparts in China is the scope for 
having a wider approach to trafficking, which the ILO does in 
every country, combining law enforcement, victim 
identification, prevention, rehabilitation, et cetera. I remain 
optimistic that progress is being made.
    Representative Leach. Let me ask, and maybe Mr. Lee and Ms. 
Perkins in particular, is there a widespread Chinese social 
understanding of the issue? That is, is this something that the 
typical Chinese citizen is, (a) very aware of, and (b) very 
concerned about?
    Or is this one of these issues that is considered something 
people just kind of let go? Do you have any sense of that? I 
mean, for example, is your work welcomed by the typical Chinese 
citizen or is it considered an intrusion?
    Mr. Lee. Well, I can only speak intelligently about 
Northeast China. In terms of the presence of North Koreans in 
China, it is certainly an issue that is well-known to those in 
Jilin Province and in the Yanbian Autonomous Prefecture region, 
and certainly along the borders. However, I do not believe that 
the trafficking issue is well known, and in my experiences 
people do not care. North Koreans are seen more as a nuisance 
than anything else. Even ethnically Korean Chinese citizens 
refuse to offer them aid. The only segment of the population, 
in my experience, that is actively taking a concern for these 
refugees is the local church and evangelical Christians in 
China.
    Representative Leach. Ms. Perkins.
    Ms. Perkins. I read People's Daily often, and I often read 
in the Chinese-language version that there are always new 
stories about anti-trafficking work by the government, 
especially those regarding trafficking for forced marriage, and 
also trafficking internally and externally from abduction of 
Vietnamese women and Burmese women into China as wives. So, I 
would say that, to a certain extent, I think the Chinese people 
do understand trafficking in that context, forced marriage, 
abduction of babies. However, as I said, in a broader 
understanding of human trafficking, I think there is very 
little awareness, especially in Fujian and Guangdong provinces, 
about the danger of migration in terms of the danger they may 
face in the migration process.
    I was told by a former trafficking victim that before he 
attempted to come to the United States, in his dream the United 
States was paved with gold. All they fantasize about is that it 
is better if you get out of the country. They do not realize 
the exploitation and the potential danger in the migration 
process. Half of the citizens in the city of Fuzhou have chosen 
to migrate out of that city. What is wrong with that? I think 
it is really the low awareness about the potential danger that 
they may face when they choose to migrate. I think that issue 
needs a series of large-scale public awareness campaigns about 
the potential danger of human trafficking, rather than 
permitting people to fantasize about life overseas as a much 
better choice.
    Representative Leach. Thank you.
    Did you want to add anything, Mr. Plant?
    Mr. Plant. I was at a seminar in Fuzhou involving all kinds 
of officials and recruitment agencies from these two provinces. 
Yes. They identified exactly what Ms. Perkins has just said, 
which is why we are now planning this intensive awareness-
raising campaign in high-risk regions. So, yes, I agree.
    Representative Leach. Mr. Chairman, let me just conclude. 
What Mr. Plant, representing the ILO, has just said is one of 
the reasons why the United States ought to be supportive of the 
ILO and the institution he represents, the United Nations. 
Thank you.
    Chairman Hagel. Mr. Leach, I agree with your observation. 
We should be. Thank you, each of you.
    Secretary Law.
    Mr. Law. Just one last question, following up on the very 
important discussion that was triggered by Mr. Leach's first 
question, 
focusing on how we find points of constructive engagement with 
Chinese officials where we can advance our principles without 
creating a direct confrontation that would end the cooperation 
that we need to have from Chinese authorities to advance those 
principles.
    I thought, in particular, Mr. Plant's observations were 
helpful in that regard, in terms of the areas that you have 
been able to find where we have been able to identify common 
goals and interests and pursue those.
    One of the areas that you mentioned--where we have not 
achieved the progress that we would like--is in creating a 
comprehensive, reliable data set that helps us understand the 
scope of the problem, where it lies, and therefore enables us 
to go after it and hold ourselves accountable for our progress 
in dealing with it.
    I was wondering, for each of the witnesses starting with 
Mr. Plant, how we can create that reliable data that helps us 
understand the scope of human trafficking, both internally, 
entirely within the borders of China, as well as externally. We 
need to get a firmer grasp of both the in-migration, for 
example, from North Korea that Mr. Lee talked about, and the 
out-migration, for example, to the United States for 
trafficking purposes that Ms. Perkins talked about.
    I will start with you, Mr. Plant.
    Mr. Plant. Thank you very much, Mr. Law. It is actually an 
extremely difficult question and one to which we have been 
giving a lot of attention. But ever since the ILO came up with 
its global estimates on forced labor and trafficking, we have 
been thinking, ``How can we enhance national capacities to have 
much more reliable data, which is a prerequisite for effective 
action in every country, whether a sender or receiving country, 
or whether sending or receiving provinces within one country? 
'' We have embarked on some significant research, as I said. It 
has not always been easy, even to persuade the European 
countries that they want to do this. But I think they have now 
come around to cooperating with our research. I think more 
research, even in this country, is needed. There are some basic 
estimates out there, but it is clear that much more systematic 
case research needs to be done.
    While some of the witnesses were talking, I looked, 
briefly, through a research paper that has been done by one of 
our Chinese consultants. There is quite a lot out there. They 
have broken down the number of prosecutions, the kinds of 
issues, in three provinces. Ms. Perkins pronounces them much 
better than I do. I will say Fujian, Zhejiang, and Jilin. So, 
it is there.
    But, yes, there is need for much more of this. As we have 
all been saying, and as all the other witnesses have been 
saying, until you have got some common understanding as to what 
is covered by the offense of trafficking, it is going to be 
impossible to move forward with more precise data collection. 
So, the conceptual issues have to go hand in hand with the data 
gathering and the research in order to move forward. Thank you.
    Mr. Law. All right. Thank you.
    Ms. Perkins.
    Ms. Perkins. I almost wonder if we should put that much 
focus on compiling data. As I understand it, numbers are very 
important for us to understand the extent and the scope of the 
challenge. However, I think this issue has been around for a 
long time. I wonder if we should put more efforts and resources 
into, for example, training of judges and law enforcement to 
help identify victims of trafficking in China, and also putting 
more resources to organizations like the All-China Women's 
Federation. As they are sort of the semi-governmental 
organization, they do have some independence and they can help 
promote some kind of anti-trafficking efforts, especially at 
the provincial level.
    China is a huge country. I do not think everything can be 
conducted through the central government. The provinces have a 
lot of autonomy. In reality, the province of Guangxi has been 
doing and piloting some of the really creative anti-trafficking 
projects, in coordination with other U.N. agencies. I think 
that kind of practice needs to be replicated by other provinces 
and promoted by the central government.
    Mr. Law. Thank you.
    Mr. Lee.
    Mr. Lee. We, as an organization, every time we take in 
refugees, do our best to collect as much data as possible. 
However, conservative estimates put the number at, I believe, 
200,000 to 300,000 North Korean refugees in China. We have 
access to maybe 1,000 of those. So, we can collect data, and we 
do our best to collect data that may be representative of the 
entire population. However, as I have shared with you, the 
refugees are in hiding. You are not going to find them. It is 
going to be difficult to garner testimony from them, or 
information. In addition, I have a hard time believing that 
anything could be done through the central government, or even 
the provincial governments. It jeopardizes the lives of these 
North Koreans, who admittedly, when you meet with them, are 
highly skeptical of any visitors, particularly foreigners and 
Chinese officials. So I have a hard time believing that 
reliable data can be collected on a large scale. If it were to 
be done, I believe it would have to be done by independent NGOs 
and be sort of representative, like I said, of the entire 
population of refugees.
    Mr. Law. Thank you. I appreciate that.
    Just briefly, with respect to the comment raised by Ms. 
Perkins, I could not agree more that our first priority needs 
to be to focus on the victims themselves and on rescuing them 
and providing the essential services that they need. But I 
would also say that it is not one or the other. It really needs 
to be a ``both-and'' effort, because I think we have even found 
in our own government that that which gets measured gets done, 
gets worked on, and gets improved.
    So taking into account your very good comments--that the 
data is probably not completely reliable or completely 
comprehensive--nevertheless, it is important to develop better 
and more specific data to be able to have some sense of the 
scope of the problem. This helps put the attention that is 
necessary on the issue and helps us hold ourselves accountable, 
as well as the Chinese Government and others accountable, for 
achieving progress on it. But thank you for your responses.
    Chairman Hagel. Congressman Leach, any last-minute 
questions?
    Representative Leach. No, sir. I just want to thank the 
three panelists. We appreciate your perspective.
    Chairman Hagel. Secretary Law?
    Mr. Law. I do, as well. I extend my appreciation to you and 
to your staff for organizing this very important and 
informative hearing.
    Chairman Hagel. To each of our panelists, thank you for 
your excellent testimony. You have contributed greatly today. 
We obviously will be back in touch with you on some follow-up 
issues and some of your suggestions.
    Ambassador Miller, Mr. Taylor, thank you for what you 
continue to do.
    I might add that one of our Commissioners, Senator 
Brownback, has asked that a written statement be included in 
the record, which, without objection, it will be.
    [The prepared statement of Senator Brownback appears in the 
appendix.]
    Chairman Hagel. Hearing adjourned.
    [Whereupon, at 4:05 p.m., the hearing was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


            Prepared Statement of Hon. Christopher H. Smith

                             march 6, 2006
    Thank you for holding this hearing today about the tragedy of human 
trafficking in China. Trafficking--the forcible exploitation for sex or 
labor of women, men and children--is one of the world's most serious 
and widespread human rights problems. It is slavery, and it is the 
denial of the very humanity of its victims. Sadly, human rights in 
China today are violated with impunity.
    Since 1979, the People's Republic of China has imposed and 
implemented a cruel policy that has systematically rendered children 
illegal and dead unless authorized by a ``birth allowance'' 
certificate. The one child per couple policy imposes ruinous fines--up 
to 10 times both husband and wife's salary--for a child conceived 
outside of the government plan. As a direct result of these ongoing 
crimes against humanity, China today is missing millions of girls, 
girls who were murdered simply because they are girls. A couple of 
years ago, the State Department suggested that as many as 100 million 
girls of all ages are missing--that is to say they should be alive and 
well but are not, a consequence of the one child government policy. 
China is the only country in the world whose systematic human rights 
abuses touch every family without exception. It results in the mass 
killing of people based on their gender. Gendercide in fact constitutes 
one of humanity's worst blights.
    Two weeks ago the Subcommittee on Africa, Global Human Rights, and 
International Operations, which I chair, held a hearing on the Internet 
in China. At the hearing, we learned that the Chinese people have 
little access to uncensored information about any political or human 
rights topic, including information about China's intentionally 
coercive one-child policy and its devastating contribution to the 
growing problem of human trafficking. This is because totalitarian 
regimes are propped up by two essential pillars: the secret police and 
propaganda. The Chinese government maintains control of its people by 
limiting what they know and through brute force--both systematic abuses 
of human rights.
    Even more disturbing, U.S. technology and know-how is being used by 
repressive regimes in China and elsewhere in the world to cruelly 
exploit and abuse the citizens of those countries. While the Internet 
has opened up commercial opportunities and provided people all over the 
world with access to vast amounts of information, in China it has also 
become a malicious tool--a cyber-sledgehammer of repression in the 
hands of the government. That is why I have introduced legislation, 
H.R. 4780, the Global Online Freedom Act of 2006, which works to 
promote freedom of information on the Internet by establishing minimum 
corporate standards for online freedom and prohibiting U.S. businesses 
from hosting an e-mail server or search engine within countries that 
systematically restrict Internet freedom.
    This hearing is particularly timely. BBC reports from January 2006 
indicate that China may replace Thailand in the next few years as the 
region's trafficking hub, all at a time when the age of victims being 
trafficked is falling. With too much frequency we read news accounts of 
women and girls who are abducted in places like Burma, North Korea, and 
Vietnam and are trafficked and sold into slavery in China.
    With more than one billion people in China, one must ask why there 
are so many women and girls being trafficked into China. After more 
than 25 years of coercive family planning, sex-selective abortions, 
infanticide, and the selling off of girl babies, there are more than 
100 million missing girls. And in 2004, the most recent year for which 
we have statistics, 9,000 women and children were kidnapped in China. I 
have met with numerous victims both in China and at hearings I have 
chaired who have told me their horrific stories of being forced to 
submit to the abortion of their children. Those stories help to explain 
why, according to a recent State Department Human Rights Report, one 
consequence of China's so-called ``birth limitation policies'' is that 
56 percent of the world's female suicides occur in China. This is five 
times the world average and amounts to approximately 500 suicides by 
women per day.
    The country's male-female sex ratio is now dangerously skewed. The 
2000 census revealed that there were nearly 19 million boys more than 
girls in the 0-15 age group. This dangerous imbalance is fueling the 
trafficking of women and girls as well as the sale of babies. The 
Chinese government must do more than pay lip service to prevent 
trafficking; it must immediately end its barbaric one-child policy.
    Another vitally important aspect of the trafficking problem is the 
repression and brutal treatment of the North Korean people that brings 
a flood of refugees to China. Women and children are increasingly the 
majority of refugees crossing the river into China, many of whom are 
abducted by ethnic Korean Chinese traffickers who sell them either to 
men as wives, concubines or prostitutes. Their price and destination 
are often determined by their age and appearance. Tragically, 
kidnapping and trafficking have become common ways that Chinese men 
acquire women. The serious imbalances in the male-female sex ratio at 
birth in China make purchasing a bride attractive. Once the women or 
girls are sold, they are subjected to forced marriage and rape. Some 
accept their fate; others struggle and are punished. In violation of 
the United Nations Refugee Convention, to which China is a state party, 
China arrests and returns North Korean refugees to North Korea where 
they face certain imprisonment and/or execution.
    Last October, I chaired a hearing on the horrific problem of North 
Koreans trafficked in China. Mrs. Kyeong-Sook CHA, told us how the Food 
Distribution Center in Pyongyang stopped distributing food at the end 
of June 1995. In October 1997 she jumped into Tumen River to find her 
daughter who had gone to China looking for food. Much later, she found 
out all Chinese living close to the border were involved in human 
trafficking. They bought and sold North Korean girls with the help of 
North Koreans. Mrs. Cha was hired as a maid in Hwa Ryong City along 
with several other North Korean women who were regularly raped. Another 
man bought her daughter for 4,000 Yuan (about $400), and they worked 
for him as servants at his house. They escaped again, but were 
eventually were kidnapped by human traffickers two months later. 
Eventually Mrs. Cha and her daughter were sent by the Chinese police to 
a North Korean detention center, where she found out her second 
daughter had also been trafficked. Mrs. Cha and her three children 
finally found her way to South Korea in June 2003.
    Trafficking victims in China are not only from North Korea. Last 
year according to the Chinese Xinhua News Agency, the number of known 
cases of women and girls trafficked from Vietnam to China doubled. One 
hundred twenty-five cases of Vietnamese trafficked into China's Guangxi 
(guong-shee) province alone were detected, and these numbers represent 
only the cases reported; we do not know the stories of countless others 
trapped in the tragedy of trafficking.
    The crime of trafficking does not affect solely women and children 
either. Chinese men have been trafficked for forced labor to Europe, 
South America, and the Middle East. A large number of Chinese men and 
women are smuggled abroad at enormous personal financial cost and, upon 
arrival in the destination country, are subjected to cruel sexual 
exploitation and slave labor to repay their debts.
    Any serious discussion of trafficking in China must examine why 
thousands are trafficked every year outside China's borders despite its 
government's alleged commitment to eliminate the scourge of 
trafficking. According to reports from Harry Wu of the Laogai Research 
Foundation, Chinese men and women pay a fee of about $2,000 to 
traffickers, who with Chinese police escort, are taken to ports where 
they board fishing vessels destined for American shores. The ability of 
the traffickers to take as many as 250 people at a time out of sea 
ports rests on the traffickers' ability to bribe the police to allow 
them unhindered movement. Once in America, or other destinations, the 
victims are forced to work for years to pay an estimated $25,000 to 
$50,000. It is clear that without the assistance of the Chinese 
authorities, traffickers could not easily send their victims abroad.
    Chinese gangs traditionally involved in prostitution in the United 
States are now bringing people here from China to work as laborers or 
prostitutes. The traffickers are notorious for their brutal treatment 
of victims who cannot come up with the money for payment. Their tactics 
include ransom, extortion, repeated rapes, and 
torture. Often, traffickers will only transport people with family ties 
so that their victims can be held hostage if payment isn't forthcoming 
or the victim is uncooperative.
    We must loudly condemn the horrific practices which continue in 
China that literally and psychologically destroy human life and spirit. 
By way of illustration, Mrs. Gao Xiao Duan, a former administrator of a 
Chinese Planned Birth Control Office, testified before my Subcommittee 
in 1998 about China's policies. She explained, ``Once I found a woman 
who was nine months pregnant, but did not have a birth-allowed 
certificate. According to the policy, she was forced to undergo an 
abortion surgery. In the operation room I saw how the aborted child's 
lips were sucking, how its limbs were stretching. A physician injected 
poison into its skull, and the child died, and it was thrown into the 
trash can. . . . I was a monster in the daytime, injuring others by the 
Chinese communist authorities' barbaric planned-birth policy, but in 
the evening, I was like all other women and mothers, enjoying my life 
with my children. . . . to all those injured women, to all those 
children who were killed, I want to repent and say sincerely that I'm 
sorry! ''
    Abortion and trafficking are the twin tragedies under which China 
is staggering. William Maddox, in a USA Today December 2004 article 
entitled ``China's `daughter dearth,' '' but which could apply equally 
well to China's trafficking scourge, calls China's one-child policy a 
``humanitarian tragedy that is robbing its people one family at a 
time,'' and laments that ``hundreds of millions of Chinese men will 
never experience the unique pleasures . . . (of being) the father of a 
daughter.'' He concludes, ``. . . while I know that America can hardly 
stand in judgment of China's policies, somehow still I wish the Chinese 
could love their daughters, too.'' It is also my fervent wish that 
China will end its daughter-hating policies, restoring life and dignity 
to its people.
    Thank you, Mr. Chairman, again for the opportunity of testifying 
today before the Commission about this vitally important issue.
                                 ______
                                 

               Prepared Statement of Hon. John R. Miller

                             march 6, 2006
    Thank you for the opportunity to address this important subject.
    Trafficking in persons is modern-day slavery, a global phenomenon 
that affects human rights, public health and international security.
    Human traffickers today use kidnapping, fraud, psychological abuse 
and beatings to force men, women and children into labor and sex 
exploitation.
    Today's forms of slavery extend into every country in the world, 
including the United States. The ``Trafficking in Persons Report'' 
released by the Department of State in June 2005 covers 150 countries, 
including China.
    Our government estimates that every year, up to 800,000 men, women 
and children are trafficked across international borders into bondage. 
And that's across international borders.
    Modern-day slavery takes many forms:

<bullet> There is domestic servitude.
<bullet> There is forced factory and farm labor.
<bullet> There is forced conscription of child soldiers.
<bullet> And there is sex slavery.

    We must remember that modern-day slavery is often linked to 
organized crime. The FBI puts the revenue figure for organized crime in 
the billions. We have the drug trade, the arms trade and the people 
trade. Human beings are sold and resold and sold again until, because 
of sickness or age, they are disposed of.
    China, like many other Asian countries, faces a huge problem of 
Chinese women and girls trafficked abroad for sexual exploitation. 
Chinese of both sexes migrate all over the world for low-skilled labor 
and a significant number of these fall victim to involuntary servitude. 
There are also reports of involuntary servitude (forced labor) among 
migrant workers moving internally within China in search of economic 
opportunities.
    I've been talking figures and categories, but let me tell you the 
story of one of the lucky ones, a North Korean survivor who was 
trafficked in China.
    In 1997, Ms. Kyeong Sook Cha fled from North Korea and in 2003 
entered South Korea with two daughters and a son. But between those 
years, she entered a hellish netherworld--abused in domestic servitude 
and labor servitude, as were her two daughters.
    Ms. Cha went to look for work in China when she could no longer 
feed her three children. Twice she was arrested by Chinese authorities, 
forcibly repatriated, and sent to a North Korean detention center. In 
China, her youngest daughter fell victim to traffickers as well. Ms. 
Cha traveled from village to village in China looking for her 
daughters, and eventually fell into debt bondage to a Korean-Chinese 
man who ``purchased'' her younger daughter to return to live with them 
and forced them both to labor on his farm.
    After enduring the abuse of her captor, she and her daughter 
eventually escaped, were detained and repatriated to North Korea, 
escaped back into China, and began to earn money as a manager in a 
karaoke establishment. She searched for her older daughter by placing 
an advertisement in a local newspaper, and miraculously found her. 
Making their way through China, Vietnam and Cambodia, the reunited 
family took residence in South Korea two years ago.
    Ms. Cha's story personifies the fates of thousands of the world's 
poor pushed to become migrants subjected to conditions of debt bondage, 
commercial sexual exploitation, and/or forced labor upon arrival in 
destination countries, including China.
    To date, the Government of China has made limited progress in 
addressing key deficiencies in its efforts to address trafficking in 
persons. Although the government has undertaken some efforts to 
investigate and prosecute trafficking-related crime, much more needs to 
be done to detect and protect victims of trafficking.
    The human rights conditions and humanitarian plight of victims 
trafficked to, from and through China are important concerns of Members 
of Congress and the whole international community. The paradigm we have 
created to combat trafficking in persons is a victim-centered approach 
that grows from a concept known as the three ``Ps'': prevention, 
protection, and prosecution.
    Prevention is self-evident but underemployed. Vulnerable people, 
especially women and children, should be warned that promises of work 
abroad are often traps. The U.S. Government vigorously works to raise 
awareness of this issue. There is extensive information, in English and 
Chinese, available on the Internet regarding human trafficking, 
including information on ways to identify a victim and where to find 
resources for victims. Unfortunately, there are other Web sites that 
offer vital information about this global epidemic and violations of 
human rights that cannot be accessed by Chinese citizens. We have 
repeatedly urged the Chinese government to respect its international 
commitments to freedom of expression and to allow for the free flow of 
information in the media and on the Internet as a means to educate 
readers on human rights issues and the danger of human trafficking.
    We are concerned about continued reports from NGOs and other 
reliable sources of an increase in the trafficking of foreign women to 
all parts of China as forced brides or for commercial sexual 
exploitation. Fueling this problem is a major gender gap--the ratio of 
male births to female births--that has always been present in China but 
has been exacerbated since the 1980s by China's draconian birth-
limitation regulations. The Chinese government has recognized that this 
is one of the problems that fuels trafficking, but have yet to take 
measures to reduce the effects of the restrictive birth policy.
    A bit later, you'll hear from Abraham Lee who's seen the situation 
first hand through his work with underground churches in Northern 
China. Greater efforts must be made to warn Korean women about the 
problem of kidnapping by some Chinese or North Korean men along the 
border who prey on unaccompanied women. We have called on the Chinese 
government to identify and protect all victims of trafficking, 
including North Koreans. They should not be penalized by deportation, 
arrest or other means because they are victims.
    The government does show signs of addressing forced labor 
conditions among informal and formal sector laborers, which continue to 
be reported throughout China. For example, as Roger Plant will attest 
later, the Chinese government in partnership with a U.S. Government 
grant to ILO has embarked on a project to prevent forced labor 
practices in nine key provinces within the Pan-Pearl Delta region. 
Additionally, in the past year, the government conducted some anti-
trafficking training for law enforcement officials.
    In terms of protection, China has not implemented a national 
referral mechanism to provide trafficking victims with adequate shelter 
and care, nor have they adopted a national plan to address human 
trafficking, although they tell us one is in the works. The 
government's record on protection of victims of trafficking varies 
widely from province to province, with regional networks of support 
funded by the All China Women's Federation, international 
organizations, and local NGOs in operation across China.
    To prosecute, regional cooperation is essential. The traffickers 
function as long as they operate beyond the law and between systems of 
enforcement. A good example of regional cooperation is the 2004 
agreement signed by six Mekong Delta countries, including China, to 
hunt down and convict traffickers and sensitively repatriate victims. 
The Chinese Government reports that the police handled nearly 2,000 
cases of trafficking in 2005, resulting in more than 3,000 women 
rescued. However, the lack of transparency and access to data prevents 
validation of these reports.
    This Administration is committed to ending the trade in human 
beings. The Departments of State, Labor, Justice, Homeland Security, 
and Health and Human Services and the U.S. Agency for International 
Development are working together to combat this scourge both at home 
and abroad. Since 2001, we have contributed approximately $375 million 
toward anti-trafficking programs and we are seeing 
results.
    In 2004, we saw 3000 convictions of traffickers worldwide and 39 
countries amended, or passed new anti-trafficking in persons laws.
    Like the struggle of the 19th century abolitionists, this 21st 
century struggle for freedom is one we can and must win--everywhere in 
the world. As President Bush said before signing the Trafficking 
Victims Protection Reauthorization Act of 2005, ``The trade in human 
beings continues in our time and we are called by conscience and 
compassion to bring this cruel practice to an end.''
                                 ______
                                 

                   Prepared Statement of Roger Plant

                             march 6, 2006
    Distinguished Members of Congress and the Administration,
    I am very honoured to be with you today, and to share some 
information on a subject to which the ILO attaches great importance. I 
have been a frequent visitor to China since its government requested 
ILO cooperation on forced labor and human trafficking in 2002, the same 
year that our Special Action Program commenced its operations.
    To place these activities in their proper context, I would like 
first to say a few words about the ILO's overall approach to the 
serious crime of trafficking in persons.
    In May last year the ILO launched a path-breaking new report, ``A 
Global Alliance Against Forced Labour.'' This provided the first global 
and regional estimates by an international organization of forced labor 
in the world today. We gave a total of 12.3 million victims of modern 
forced labor, of which 9.5 million are in the Asian region, and 2.45 
million are victims of human trafficking. Most people are trafficked 
into forced labor for commercial sexual exploitation, but at least one 
third are also trafficked for other forms of economic exploitation. We 
also observed that four out of every five cases of forced labor today 
involve exploitation by private agents rather than the State.
    These few figures set the stage for general comments about the ILO 
approach to human trafficking.
    First, we are concerned that, while the trafficking of women and 
children for sexual exploitation is a particularly serious problem in 
the modern world, men and boys can also be trafficked for other forms 
of economic exploitation.
    Second, when it is mainly private agents who exploit the victims of 
forced labor, this means that the offences of forced labor, modern 
slavery and slavery-like practices, are very closely linked. Indeed it 
is the presence of coercion (which usually takes place at the end of 
the trafficking cycle), which distinguishes the crime of human 
trafficking from that of human smuggling.
    Third, we believe that the ILO's broad mandate--derived from its 
wide range of labor standards, and also its tripartite structure 
involving employers' and workers' organizations as well as 
governments--gives it a unique role in action against human 
trafficking. Whether the trafficking is for sexual or for other forms 
of forced labor exploitation, the ILO's main strength lies in involving 
labor as well as business actors, and labor institutions both inside 
and outside government, in broad-based action against it. This includes 
awareness raising, data gathering and victim identification, victim 
protection and law enforcement (including monitoring conditions of 
recruitment and employment), and return and rehabilitation of victims. 
Moreover, the ILO's structure makes it well placed to deal with the 
challenges of trafficking across the cycle between origin, transit and 
destination countries.
    Moreover, it is important to emphasize that the ILO has two main 
mechanisms for dealing with problems of forced labor. It has 
supervisory bodies for monitoring the application of its standards, 
including its two Conventions on forced labor which now enjoy very 
widespread ratification. Second, its 1998 Declaration on Fundamental 
Principles and Rights at Work provides for technical assistance to 
member States for the promotion of core labor standards, including 
those on forced labor.
    I now turn to the main themes I have been asked to address today: 
the current state of human trafficking in China; the effectiveness of 
ILO efforts to counter forced labor and human trafficking there; and 
the lessons that international and domestic anti-trafficking work may 
hold for policy in China.
  the current state of human trafficking in china: issues of law and 
                                practice
    I shall not comment on the scale or extent of trafficking in and 
from China, as we do not have this information at hand. My comments are 
limited to the law and policy framework and challenges.
    In recent years, there has been considerable evidence of Chinese 
commitment to combat trafficking, as well as smuggling. The US State 
Department's most recent annual Trafficking in Persons Report for 2005 
refers to reports that 309 trafficking gangs were investigated, 5.043 
suspected traffickers arrested, and 3,144 referred for prosecution. 
Anti-trafficking coordination mechanisms have been established, 
involving different agencies at different levels. There has been 
extensive distribution of information on the dangers of trafficking, as 
well as increased international cooperation on anti-trafficking 
activities. .
    As in several countries however, current penal legislation on 
trafficking covers only the trafficking of women and children. Article 
240 of the Penal Code provides for a heavy prison sentence, plus a 
fine, for those persons abducting and trafficking women and children. 
The implication is that several of the offences covered by the 
definitional articles of the Palermo ``Trafficking Protocol'' to the 
United Nations Convention against Transnational Organized Crime 
(including forced labor or services, slavery or practices similar to 
slavery) are not covered by existing Chinese legislation.
    A draft National Action Plan to combat trafficking is now under 
active discussion. It sets out some of the main challenges, if action 
against trafficking is henceforth to become more effective. It 
identifies the need for a specialist organization to 
coordinate anti-trafficking activities, and also a shortage of anti-
trafficking institutions and personnel. More relevant research should 
be undertaken. International co-operation should be strengthened 
urgently, to deal with the increasing incidence of cross-border 
trafficking in women and children. And laws and regulations need to be 
further improved.
       ilo efforts to counter forced labour and human trafficking
    ILO activities have grown steadily over the past few years. An 
early initiative included Yunnan province of China as part of a broader 
effort in the Greater Mekong Sub-region to prevent the trafficking of 
women and children. A specific project to prevent trafficking in girls 
and young women in China was then designed in close collaboration with 
the All China Women's Federation (ACWF) and several ministries. 
Commencing in 2004 with financial support from the United Kingdom, the 
project's main objective has been to help prevent girls and young women 
from ending up in unacceptable forms of work or service in China 
(including the ``entertainment industry''), by reducing their 
vulnerability to trafficking. It operates in both sender and receiving 
provinces for potential victims of trafficking in China itself. Anhui, 
Henan and Hunan have been chosen as sending provinces; and Guangdong 
and Jiangsu as receiving provinces.
    Since 2002 the ILO has been engaged in dialog and cooperation with 
China over forced labor concerns including trafficking in persons. In 
its annual report for 2003 under the ILO's Declaration on Fundamental 
Principles and Rights at Work the Government identified, as a 
difficulty with regard to the elimination of forced labor, ``the lack 
of information and lack of capacity of responsible government 
institutions concerning forced labor due to trafficking''. It also 
requested assistance with regard to broader forced labor concerns, to 
prepare the ground for anticipated eventual ratification of the ILO's 
two Conventions on forced labor. The ILO has provided assistance for 
proposed reforms of China's Reeducation through Labor (RETL) system, 
through technical seminars in China and study tours overseas. A first 
study tour was organized in September 2003, enabling Chinese officials 
to observe experience and best practices for dealing with minor 
offences in France, Germany, Hungary and Russia. The delegation 
comprised senior officials from the Ministries of Labour and Social 
Security, Justice and Public Security; and from the Standing Committee 
of People's National Congress and the Legislative Bureau of the State 
Council. In January 2005 a similar delegation visited Australia and 
Japan, to exchange experience with particular regard to community 
service and also measures against trafficking. An aim of these visits 
has been to strengthen a network of officials from key Government 
agencies, who can cooperate in the process of law and policy reform in 
the areas of forced labor and trafficking.
    Since September 2004 the ILO's Special Action Programme to Combat 
Forced Labor has been implementing, with the Ministry of Labor and 
Social Security (MOLSS) as its Chinese partner agency, a project on 
``Forced Labor and Trafficking; the role of labor institutions in law 
enforcement and international cooperation in China''. Supported by the 
US Department of State, the project aims to enhance the capacity of the 
Government of China to address the law enforcement aspects of the 
trafficking cycle, with activities in both China as a sender country 
and several European destination countries. It has components of policy 
advice, awareness raising and capacity building at both central and 
provincial levels, activities with employers' and workers' 
organizations, and research in the destination countries. In China, the 
activities have concentrated on the provinces of Fujian, Zhejiang and 
Jilin.
    The project has already served to stimulate important debate on law 
and policy concerns related to trafficking, notably the difference 
between existing Chinese approaches and those of the Palermo 
Trafficking Protocol. A high-level Chinese expert reviewed all existing 
national legislation on forced labor, trafficking and smuggling; as 
well as comparative studies on relevant concepts in national and 
international law. A key objective of a national seminar held under the 
project in April 2005 was to compare these approaches, and seek the 
means to harmonise Chinese law and policy with emerging international 
standards on trafficking.
    Activities at the provincial level have had the practical 
objectives of training law enforcement officials, together with labor 
authorities, on the prevention and eradication of forced labor and 
trafficking. To this effect a training program held in Yanji, Jilin 
province in August 2005 brought together labor and public security 
officials from provincial and lower levels, and also representatives of 
recruitment agencies. This is a province of Northeastern China, 
bordering Russia and North Korea, with heavy unemployment of some 5 
million persons. More than 100,000 migrants are currently seeking work 
overseas, many of them from Yanji which is an autonomous region of 
Chinese Korean minorities. There have been concerns that, since 
extensive emigration got under way in the late 1980s, Korean and 
Chinese recruitment agencies have colluded in deceptive recruitment 
mechanisms. The seminar focused on ways in which the Government can 
reinforce its monitoring of recruitment agencies. It also identified 
difficulties in effective application of existing law, in order to 
punish illegal recruitment agencies.
    A further training workshop was held in Fujian province in November 
2005, bringing together officials from Jilin, Fujian and Zheijiang 
provinces, along with representatives of recruitment agencies, tourism 
bureaus, women's organizations, labor lawyers and trade unions. Law 
enforcement and immigration/visa officials were also invited from 
France and the United Kingdom, as key destination countries for Chinese 
migrants from Fujian and Zheijiang. The training again focused on the 
prevention of trafficking, through effective monitoring of the 
recruitment agencies that play an important role in sending people 
overseas. Highlighting the deceptive methods, together with the 
charging of exorbitant fees, that can drive Chinese migrants into 
situations of severe debt bondage, participants identified the need for 
a major awareness raising campaign in a proposed second phase of the 
project.
    Concurrently, SAP-FL has been carrying out a major research 
programme in European destination countries. Generally, there has been 
growing awareness that Chinese migrants can be subject to highly 
abusive conditions of work and transportation in the destination 
countries of Europe, the Middle East, the Americas and elsewhere. In 
the United Kingdom for example, the tragic deaths of 20 Chinese cockle 
pickers in early 2004 brought to light the severe forms of exploitation 
to which these clandestine migrants can be subjected. And in the United 
States, it has recently been estimated that as many as half the victims 
of forced labor may be ethnic Chinese.
    And yet there has been very little systematic research on the 
subject. To fill this gap, we first issued an overview paper on the 
subject of Chinese migrants and forced labor in Europe. This was 
followed by a case study on the trafficking and exploitation of Chinese 
immigrants in France (currently available only in the French language, 
though it is now being translated into English). The study (based on 10 
detailed case studies and a wide range of interviews with labour and 
other officials, as well as members of the Chinese community and other 
key informants) examines the whole cycle of recruitment and transport, 
as well as the living and working conditions experienced in France by 
clandestine Chinese migrants. It examines the complex links between the 
``snakehead'' recruiters, either in China or overseas, and employers in 
the Chinese ethnic enclaves in France. High indebtedness is identified 
as the key factor behind the severe labor exploitation of most Chinese 
migrants. Some migrants are physically detained after arrival, until at 
least part of the debt has been paid by families back home. In other 
cases insolvent migrants work for an employer, who gives the wages 
directly to the trafficker to cover travel expenses. Fifteen-hour 
workdays are common, as are cases of direct physical restraint. The 
study estimates that it can take between 2 and 10 years for the average 
migrant to pay off the debt.
    The French report was released with considerable publicity in Paris 
in June last year, and has been followed by extensive media reporting. 
Similar research is now under way in Italy and the United Kingdom. It 
has been actively solicited by our partners in the Chinese government, 
who see documentation of this kind as an essential ingredient of future 
prevention campaigns. A video film of the Chinese experience in France 
has recently been completed.
   the question of effectiveness, and lessons for policy coordination
    How effective are our efforts? It may be early to judge, following 
a few years experience on a complex and sensitive subject. But during 
each of my visits to China, as well as several exchanges with Chinese 
officials abroad, I have found reason to believe that the Government, 
as well as our social partners in employers' and workers' 
organizations, are increasingly determined to grapple with the problems 
of human trafficking as well as smuggling, and to combat it by 
strengthening law enforcement and international cooperation. Only this 
week we are holding our first training sessions with the Chinese 
Employers' Confederation, in Beijing and Hanzhou respectively, on means 
to identify potential forced labor problems at the enterprise level and 
prevent their occurrence.
    Despite impressive economic growth, the pressure for emigration 
from China remains immense. China is a labor abundant country, 
experiencing very high unemployment in certain regions. Some local 
governments actively encourage people to emigrate, regarding such 
emigration as a solution to local unemployment problems.
    Moreover internal migrants, such as rural workers moving to the 
cities, can be vulnerable to trafficking for labor exploitation. There 
are signs that China is taking steps to respond to these challenges. 
Pilot reforms to the Hukou registration system, now being tested in 
certain cities, permit equal access to employment for migrant workers. 
And in 2005 China ratified the ILO's Discrimination (Employment and 
Occupation) Convention, No. 111 of 1958, again providing the scope for 
more protection for such migrants.
    Internal trafficking in China, including the abduction and sale of 
women for forced marriage and of children for adoption, remain serious 
problems in China. Continued efforts are needed to clamp down on these 
forms of abuse, and to punish the perpetrators.
    On reforms to the Reeducation through Labor system, this process is 
taking its time. Its reform has been incorporated in the Five-Year 
Legislation Plan, and a draft law regarding an alternative system of 
community correction has been submitted to the National Peoples' 
Congress. We continue to watch this matter closely.
    It is important to have a realistic approach to Chinese population 
movements. In Europe for example, the growing presence of Chinese 
migrants is often viewed with concern. At a recent European meeting on 
illegal migration from China, the emphasis was mainly on problems of 
border control, fraud and visa abuse, and the use of technology such as 
biometrics for identifying fraudulent practices. Nevertheless--as the 
UK experts emphasized at our recent Fujian seminar--there can be strong 
demand for Chinese workers. And aspiring Chinese emigrants may pay a 
fortune to the snakeheads, landing themselves in severe debts, and 
making themselves and their families liable to violent reprisals, 
without even looking into the channels for lawful emigration.
    For these reasons it is important in the near future to promote 
safe and legal 
migration, rather than make fruitless efforts to persuade people not to 
move. Awareness raising and prevention are essential measures, to 
complement vigorous law 
enforcement.
    Learning from experience to date, we are now planning continued 
cooperation with China at both national and provincial levels. Measures 
to help strengthen the law and policy framework will focus on forced 
labor and trafficking for labour exploitation. Other aspects will focus 
on the training of central and provincial government officials on labor 
migration management, including the management of private recruitment 
agencies.
    At the provincial level, we now plan to target more intensively the 
sender provinces of Fujian and Zheijiang. An awareness raising program, 
drawing on diverse tools including hotlines, local media and the web 
sites of recruitment agencies, will focus on regions already identified 
as at high risk for potential migrants. Other planned program 
components aim to improve capacities to provide education, health care 
and other services to victims of trafficking and labor exploitation.
    A real challenge is to promote informed dialog between the 
governments of China and the principal destination countries for 
Chinese migrants, as to the means to prevent and combat forced labour 
and trafficking. Building on our research and data gathering, as well 
as the initiatives of international partners in the European Union 
countries and elsewhere, we see an urgent need to involve business and 
labour actors in this international cooperation. We aim to bring 
together labor institutions and authorities, law enforcement agencies 
and academic experts from both sides, and we hope that such an 
initiative will also be of interest to the United States.
    Thank you for your attention.

                Prepared Statement of Wenchi Yu Perkins

                             march 6, 2006
    Senator Hagel and other distinguished members of the Commission and 
staff:
    Thank you for choosing to focus on today's issue, ``Combating Human 
Trafficking in China: Domestic and International Efforts.''
    On behalf of Vital Voices Global Partnership, I am pleased to come 
to you today and present on one of the world's greatest human rights 
violations, human trafficking, in China. Vital Voices has been at the 
forefront of anti-trafficking efforts since the mid 1990s. We worked 
with the global community to help create the ``United Nations Protocol 
to Prevent, Suppress, and Punish Trafficking in Persons, Especially 
Women and Children;'' and we were instrumental in the passage of the 
U.S. anti-trafficking legislation, ``Trafficking Victims Protection Act 
2000,'' as well as its reauthorization acts in 2003 and 2005. We have 
also made impacts in the region by promoting a multi-stakeholder 
approach to enhance government and civil society collaboration.
                                overview
    Human trafficking is one of the most egregious human rights 
violations in the 21st century. It is also a transnational crime that 
knows no boundaries. From North America to Asia, from Europe to Africa, 
no continent and no country is immune to this modern-day slavery. While 
the international community is still learning about the extent and 
gravity of this global scourge, more information is gradually coming to 
light. In the case of China, the situation is very serious. According 
to my personal experience encountering human trafficking victims in the 
United States, as well as the information my organization, Vital Voices 
Global Partnership, has collected from our partners in China, human 
trafficking is pervasive in China and demands increased international 
attention and efforts. I want to give you a couple of tangible examples 
of the horrific situations faced by Chinese victims of trafficking 
today, and then provide a general assessment of the situation within 
the country, especially from women and children's perspectives.
                             victim stories
Ling (fictitious name), 22 years old, from Zhejiang Province, China
    Ling was from Zhejiang Province. After graduating from high school, 
Ling began working in a factory in her neighboring city. She felt there 
was no hope in improving her position in life and considered herself 
part of the lowest class in Chinese society. After being enticed by a 
snakehead who told her that she could make a lot of money in the United 
States as a waitress, Ling was persuaded to enter the United States 
using false documentation. Ling first started working in a restaurant 
in the Midwest. She was paid approximately $500 US dollars a month and 
stayed in a house provided by the restaurant owner along with other 
girls from a similar background. Ling was making so little money that 
she worried about never being able to pay off her travel debt to the 
snakehead. Finding herself still in debt after several years of work, 
Ling saw an advertisement in a local Chinese newspaper and decided to 
take a more lucrative job at a massage parlor. Unfortunately, the 
massage parlor owner forced Ling to provide sexual services and when 
Ling refused for the first time, he threatened to send her to the 
authorities for deportation. Ling was suffering psychologically and 
physically. Her work there only came to a halt when police raided the 
brothel and brought Ling back to the police station. She did not speak 
any English, so the police enlisted the help of a local NGO involved 
with trafficking victim identification. Ling declined the offer by the 
NGO representative to stay in temporary housing until further 
investigation by law enforcement was completed. Ling said she was 
terrified that she would be deported and unable to pay off her debts, 
and that as a result the lives of her family in China would be 
threatened. As a direct result of this fear, Ling decided not to 
cooperate with the NGO.
Zhou (fictitious name), 17 years old, from Fujian Province, China
    Zhou is one of the four children in his family with two older 
sisters and one younger brother. His father left home after their 
family farm was confiscated by the Chinese authorities because they 
violated the government's one-child policy. In order to find work and 
raise her children, Zhou's mother moved the whole family from their 
home village to Fuzhou City. Unfortunately, because they did not have a 
city residence card (hukou), Zhou and his younger brother could not 
receive formal schooling. This meant that at age 13, Zhou was forced to 
stop his formal education. By the time he turned 17, lacking a city 
residence card, and a sufficient education with which to find a job, 
Zhou had few prospects within China. As a result, Zhou's mother decided 
to take the risk and send him to the United States. She had witnessed 
many people leave the city for a life abroad and knew that there was 
little hope for her son to find a better life in China. She borrowed 
some money to pay for Zhou's travel using a snakehead (the Chinese term 
for human smuggler). The money was only a small portion of the total 
fees, and Zhou was expected to work off the remainder of his debt in 
the United States. Prior to arriving in the United States, Zhou learned 
from his mother's friends that snakeheads often threaten families back 
in China if debts are not paid on time. Snakeheads almost always 
operate as part of a large-scale crime syndicate, and their tactics are 
infamously brutal. This pressure was instilled within Zhou even before 
he left China. Upon arrival in the United States, Zhou was detained by 
a customs official for using false documents and was put into a 
detention center. With the assistance of a legal aid pro bono attorney, 
Zhou was released from U.S. immigration custody while his case was in 
the proceedings. Once released, he found himself terrified by the 
prospect of not being able to pay off his substantial debts and the 
penalties back home that might ensue. These fears were compounded when 
he received news that the snakehead had already begun calling his 
mother in China. Knowing the potential consequences which would likely 
arise from being deported, penniless, back to China, Zhou chose not to 
report back to the court as required. He decided that living illegally 
and in squalid conditions was preferable to endangering the life of his 
mother. As illustrated, this fear tactic employed by traffickers is 
extremely effective at keeping victims in exploitive situations, and 
fearful of the authorities.
             human trafficking from, within, and into china
Human trafficking from China
    The two stories I shared above were from victims I encountered 
while working for an immigration legal aid organization in the Midwest. 
Their stories are similar to those of many other victims of trafficking 
who originate from China. The majority of Chinese victims start as 
voluntary migrants, who have been convinced by their neighbors and 
relatives that life would be much better in other countries. Contrary 
to finding a land of wealth and opportunity, however, most of them are 
grossly exploited throughout the migration process. Without proper 
immigration documents, they end up making little to no money, working 
in horrific conditions in sweatshop factories or as forced prostitutes, 
and remain under constant threat from their traffickers. Even after 
their arrival in the United States, their distrust of law enforcement, 
based on past experience with corrupt government officials in China, 
forces them to remain vulnerable and exploited by their traffickers.
    The physical and psychological control of these vulnerable 
trafficking victims by the organized syndicates is intense enough to 
force them to engage in illicit activities. Most victims have a deep-
seated fear for the safety of their family back home. This is 
illustrated by a 16-year-old girl who I encountered after she had been 
detained at immigration facilities. The girl was meticulously saving 
every single dollar that she was given by the authorities and sending 
the money back to China, because ``every dollar could help my mother 
pay off the debt.'' Even with such devoted saving, it is often 
impossible to completely pay off these debts, as snakeheads impose 
ridiculously high interest rates. Compounding the problem is the fact 
that many of the exploited are minors under the age of 18, who are 
easily manipulated.
    Most victims come from coastal provinces such as Fujian, Zhejiang,
    Jiangsu, and Guangdong; however, the continued trafficking of 
ethnic minorities from China's southwest, primarily Yunnan and Guangxi 
Provinces, to the Mekong Sub-region is also of concern. Many 
international organizations have been working in the Mekong Sub-region 
for a long time to help repatriate victims and raise awareness, yet 
continued efforts are still needed.
    Chinese victims of trafficking are forced into sexual and labor 
exploitation. Not only are they psychologically and physically abused 
by their traffickers, they are held in indentured servitude or as 
bonded labor. Some of them leave their homes, believing that they will 
marry men in Taiwan, Japan, Hong Kong, Malaysia, or other Asian 
countries, but instead fall victim to trafficking, becoming forced 
prostitutes or laborers. Some of them become mail-order brides, only to 
find out too late that their husbands are different from what the 
marriage brokers claimed, and often fall prey to abuse. In such cases, 
their uncertain immigration status and fear of losing child custody 
often leads many women to endure extremely abusive and dehumanizing 
situations simply because they feel they have no other options.
    Most Chinese victims of trafficking, because of their illegal 
immigration status or because they are involved in illegal activities, 
are automatically categorized as criminals by law enforcement. Without 
acknowledgment of the exploitive situation they are in, most victims 
are put directly into detention centers without proper screening or 
identification. Once they are placed in detention facilities, it can 
take up to years for them to be deported back to China because local 
Chinese embassies and consulates often ignore requests for deportation 
travel documents by destination country immigration officials. The 
problems for victims being deported back to China are magnified if they 
have been trafficked to Taiwan. Political tension between the two 
sides, as well as the lack of an official repatriation process, only 
exacerbates an already difficult process. Victims trafficked from China 
to Taiwan are primarily women who were trafficked for sexual 
exploitation. These women find themselves detained in Taiwan's 
immigration detention facilities for prolonged periods of time, to the 
degree that some are forced to give birth to children while being held 
in confinement.
    Many of the victims want to go back to China simply because they do 
not want to stay in the detention facilities indefinitely. However, 
many more fear deportation because it is a crime in China to leave the 
country without the government's permission. Some say that they will 
need to serve time in jail upon returning home and that the length of 
jail time will depend on how much money they can raise for a bribe. I 
have heard stories that those deported back to China without money for 
a bribe are stripped of clothes and beaten in jail.
Human trafficking within China
    Human trafficking within China is also pervasive. In addition to 
the abduction of women and children for sexual exploitation, it is said 
that trafficking for forced marriage has been increasing since the 
1980's. Most of the women are abducted and taken to rural areas for 
purchase by older men or by those who are of a low position in society 
and have difficulty finding a willing partner. In fact, the practice of 
forced marriage is not a new development in China. Throughout history, 
many women from ``better'' families were abducted to marry heads of 
gangs or tribal leaders in remote areas. This has led to greater 
societal acceptance of this practice. Recently, it is believed that 
trafficking for forced marriage has increased due to the imbalance in 
the numbers of women to men as a result of the one-child policy and 
Chinese society's traditional preference for sons. According to the 
report, An Absence of Choice, men currently outnumber women with a 
ratio of 13:10, and in some rural populations the disparity is even 
greater. According to a Vital Voices' partner in China, some Chinese 
even think forced marriage is a way to prevent rape and sexual assault 
in the community, since it assures that the sexual needs of these men 
are being met. Therefore, the practice of forced marriage is tolerated 
in some less developed areas and has been flourishing in recent years.
    Another trafficking situation that has arisen in part from the one-
child policy is the trafficking of infants, most under the age of one. 
Baby boys are often trafficked to families unable to have a son, and 
baby girls are sold, often by professional rings, to orphanages who 
profit from overseas adoptions. This practice is bolstered by Chinese 
culture's traditional preference for boys. Baby trafficking has drawn 
wide attention in China, and the government is starting to crack down 
on such cases.
    Another human trafficking practice within China that has not 
received enough 
attention is trafficking for labor exploitation. Migrant worker issues 
in China have drawn world attention, as the abundance of cheap Chinese 
labor has made the country the world's largest sweatshop. Most of the 
factories in the wealthy south employ migrant workers from the poorer 
west or north. Similarly, most of the migrant worker voluntarily move 
to the south for factory jobs but become exploited laborers. According 
to Verite, a non-profit organization monitoring China's labor 
conditions, 70 percent of the migrant workers in the Pearl River Delta 
are females under the age of 25 and are extremely vulnerable to all 
forms of exploitation. Most of them migrate to the south being told 
that they will be paid according to the contract they sign and that 
they will be protected by national labor laws. China's labor laws 
stipulate that all workers shall work no more than 8 hours a day, 44 
hours a week. In reality, forced overtime is almost a norm in these 
factories. According to the China Daily, last November a Sichuan woman 
working in Guangzhou fell into a coma and passed away after being 
forced to work for 24 hours non-stop in order to finish orders. 
Furthermore, while the average monthly pay for a woman migrant worker 
is about Renminbi 300-500 (US $37.5--$62.5) in Guangdong province, some 
of the factories do not even pay minimum wage and others illegally 
deduct meal and dormitory fees from workers' pay. China's migrant labor 
exploitation in the south has been discussed widely, and I am grateful 
that the Commission has held several hearings and roundtables on this 
topic before. However, this issue has not been explored in the context 
of human trafficking, and most people do not realize that these workers 
come to the south because they are told that they can make more money 
to better support their families in rural areas. I urge the Commission 
and the U.S. State Department's Office to Combat and Monitor 
Trafficking in Persons to pay special attention to this form of human 
trafficking.
Human trafficking into China
    Human trafficking for forced marriage also occurs across borders 
when Chinese men seek brides from neighboring and often poorer 
countries. The most frequent offences happen with women trafficked from 
Burma, Cambodia, and particularly Vietnam. News stories about 
Vietnamese girls trafficked into China for forced marriage or sexual 
exploitation appear regularly in both local and international press. In 
response to this growing problem, the Chinese and Vietnamese 
governments have participated in several joint-projects and agreements 
over the past few years in an effort to stop this form of trafficking 
in women and children.
    The Chinese government has taken steps to confront the trafficking 
problems in its southwest region. However it continues to turn a blind 
eye on the equally problematic situation that has emerged in the 
northeast. Due to the constant threat of starvation, which began with 
the famines of the mid 1990's, North Koreans have been fleeing into 
China. Rather than designating them as refugees, the Chinese government 
continues to view these people as economic and illegal migrants, and to 
deport them back to the Democratic Peoples Republic of Korea (DPRK). 
This leaves this vulnerable population, the majority of which are 
women, especially susceptible to both sexual and labor exploitation. 
Almost all illegal North Koreans in China would rather endure abusive 
working conditions as domestic servants, nannies or even wives than 
return to the DPRK, where leaving the country without the government's 
permission could lead to a death sentence.
    While the previous two areas suffer primarily from the trafficking 
of women, there have also been news reports about men being trafficked 
from Kyrgyzstan into China for forced labor, especially to the 
predominantly Muslim Xinjiang region. There has also been documentation 
of Xinjiang children, who are from the native Uighur minority, being 
trafficked throughout China as forced beggars and thieves.
                   anti-trafficking efforts in china
    The Chinese government's anti-trafficking work falls under the 
jurisdiction of the Ministry of Public Security. In 2005, the Bureau of 
Public Security of Dongxing Prefecture, Guangxi Province established a 
shelter, the Transitional Center for Rescued Foreign Women and 
Children. The center provides care for rescued Vietnamese women and 
children. China already has in place extensive laws to prosecute 
trafficking crimes. Despite these prosecutorial elements being in 
place, the government has made an insufficient effort at protection and 
rehabilitation of victims, particularly those who are deported back to 
China and foreign nationals who have been trafficked into the country. 
While the Transitional Center for Rescued Foreign Women and Children is 
a step in the right direction, much more needs to be done in the effort 
to formally address the issue of victim protection and rehabilitation. 
China's prevention work is limited to certain provinces rather than 
being comprehensive. This means that some affected regions are not 
receiving crucial preventative education, and that the cycle of 
trafficking can continue unchecked.
    While the greatest responsibility of anti-trafficking activities is 
currently shouldered by the government, there are several local groups 
that are working on this issue. The All-China Women's Federation (ACWF) 
currently provides legal assistance to victims of trafficking in China. 
Vital Voices also works with independent local Chinese NGOs that 
provide legal assistance to victims of trafficking for forced marriage 
or domestic servitude.
    In addition to local NGOs and state groups, there are several 
international organizations working on join anti-trafficking projects 
with the Chinese government and the All-China Women's Federation. They 
include the UNESCO, the UNICEF, and the ILO.
                            recommendations
    The Congress can play a vital role to help address the modern-day 
slavery from, within and to China. On behalf of Vital Voices Global 
Partnership, I have the following recommendations:

1. Encourage specialized training for law enforcement and judges
    Successful prosecutions and investigations are the only means to 
halt human traffickers. The Chinese government has done quite a lot 
through the Ministry of Public Security and the anti-trafficking 
coordinating office. More law enforcement training should be available 
at the provincial and county levels so anti-trafficking efforts are not 
limited to the central government.
2. Avail greater resources to promote collaboration between government 
        and NGOs in China
    In line with training for law enforcement and judges, capacity 
building for NGOs needs to occur at all levels. This will allow them to 
complement government efforts while providing professional services and 
making positive changes. Additional leadership training for the 
emerging NGO leaders in China is a crucial component of the training 
that needs to occur. Toward these efforts, groups should conduct 
nationwide training for their employees and work with other 
organizations, both international and local, to facilitate 
collaborative efforts between the government and NGOs in victim 
identification and assistance.
3. Call on international business community to help change and prevent 
        the practices of exploiting trafficked migrant labor
    In addition to government and NGOs, the business sector is vital in 
successful anti-trafficking efforts. Many garment, toy, and other 
labor-intensive manufacturing factories are contractors or sub-
contractors of international brands. Most international companies can 
work with their contractors in China to ensure that migrant workers are 
not exploited and that employers abide by China's labor laws.
4. Authorize funding to support large-scale awareness raising campaigns 
        to prevent human trafficking
    Most Chinese citizens at risk of being trafficked do not realize 
the potential danger involved in the migration process. Many of them 
feel hopeless in their community and fantasize about life overseas or 
in the large cities. It is vitally important that the government 
partners with popular public figures to launch large-scale campaigns 
targeting at-risk youths and informing them about the reality of life 
overseas. This should also include information on available assistance, 
such as support networks and hotlines. In areas highly vulnerable to 
human trafficking, such as Yunnan, Guangxi, Fujian, Zhejiang, Henan, 
Gansu, Shanxi, Jilin, the autonomous regions and those with significant 
populations of ethnic minorities, government and NGOs should carry out 
targeted and focused campaigns.
5. Urge the Chinese government to reconsider government policies 
        resulting in irregular migration and exploitation of migrants
    China's one-child policy, household registration policy, and the 
control of citizen exit and entry policy have resulted in irregular 
migration and a large underground market for organized syndicates to 
maneuver and exploit vulnerable migrants. While we understand that the 
government is gradually changing some of these policies, and we welcome 
those changes, the severe social consequences that resulted from 
earlier policies need to be carefully dealt with.
6. Analyze the various forms of trafficking and the best practices of 
        reintegrating trafficked women into their community and 
        providing them with practical living skills
    There have been some legal research and field studies on 
trafficking in China. However, the studies are limited to certain 
regions and certain types of trafficking. The trafficking for forced 
marriage is under-addressed; the trafficking for forced labor within 
and from China is also a greater challenge that deserves more than 
labor rights advocates' attention, especially when most exploited 
migrant workers are women. Migrant labor trafficking should be 
discussed in the human trafficking context as well.
    Studies should be conducted and best practices identified from the 
various projects currently being carried out on smaller scales. 
Examples of some best practices include the recent pilot project 
conducted by All China Women's Federation and UNICEF, which set up 
women's activity centers in Sichuan Province for the reintegration of 
trafficked women. These centers seek to equip victims with practical 
living skills and have proven to be very successful. This type of pilot 
project needs to be identified, supported and then replicated by the 
government and the international community.
    Vital Voices plays a key role in designing and implementing the 
multi-stakeholder approach to the trafficking challenge worldwide. In 
East Asia, we have successfully changed policies and laws in Japan by 
engaging multiple stakeholders. Soon we will be implementing another 
program in Bangkok adopting the same approach. China's tactics for 
combating human trafficking are still sporadic and disjointed. The 
Chinese central government is beginning to take seriously the threat of 
human trafficking. Nonetheless, efforts must occur on all levels and 
utilize all sectors of society, including business and civil society. 
Similar to Japan and Thailand, we believe that China will also need a 
comprehensive and multi-stakeholder approach to tackle the complex 
issue of human trafficking. Only by combating trafficking on multiple 
levels and involving as many stakeholders as possible will China be 
able to effectively 
address this horrendous problem.
    Thank you.
                                 ______
                                 

                   Prepared Statement of Abraham Lee

                             march 6, 2006
                            i. introduction
    Crossing Borders is a faith-based organization committed to 
maintaining a sustainable and viable presence in Northeast China to aid 
the plight of North Koreans fleeing the oppression and suffering of the 
North Korea regime. Our vision is to see the refugees under our care 
reestablish their sense of self-worth, self-respect and their sense of 
hope by providing food, clothes, shelter, and medicine with love and 
care.
                        ii. state of north korea
    Information from within the Democratic People's Republic of Korea 
(DPRK) confirms ongoing suspicions of continuing famine-like conditions 
particularly in rural areas along the Tumen River border with Northeast 
China. Reports indicate that proposed rations purported to be 
distributed to workers and citizens beginning in October 2005 have not 
been made available and the North Korean people continue to go hungry. 
The lack of food and accompanying malnutrition appear to be substantial 
factors in the spread of tuberculosis among villagers. In addition, as 
the testimony of the growing number of defectors out of North Korea 
have confirmed, the government of the DPRK continues unabated as a 
regime committed to the suppression of human rights and freedom within 
its borders. Its citizens live under constant fear and threat of 
brutality including possible detention in notorious political prison 
camps and even summary execution. Repatriated refugees who were 
unsuccessful in their attempts to escape to China and evangelical 
Christians are particularly susceptible to intense persecution.
    The extreme famine of the late 1990's triggered a mass exodus of 
refugees into China in search of food and an opportunity for survival. 
With little improvement in the basic living standard of most North 
Koreans, the flow of refugees continues to remain steady. Especially in 
towns along the Chinese border, increased access to information from 
returning refugees and visitors from China entice citizens to pursue a 
better life across the border. In addition, while many still attempt 
the treacherous journey through the mountains or across icy rivers to 
reach China, the border has become more porous and accessible often 
only requiring a bribe to a border guard of approximately 200RMB ($25) 
per crossing. Reports indicate that meals inside North Korea consist of 
fried corn gruel and boiled weeds while going hungry is often the norm. 
Rice is virtually unavailable.
                       iii. refugee vulnerability
    The combination of extreme hunger, potential economic opportunity 
and easier access motivates refugees to abandon family and risk their 
lives to enter China. It also provides human traffickers the perfect 
opportunity to exploit this desperate situation. Although the numbers 
are difficult to quantify, reports indicate that as many as 70-80 
percent of all North Korean women who enter China illegally are victims 
of trafficking. Refugees in the care of Crossing Borders often admit to 
having been lied to or abused during their journey to or during their 
subsequent stay in China. In response to the question ``Have you been 
lied to? '' or ``Have you been abused? '' a common answer is ``many 
times'' or ``more times than I can count.''
    North Korean women are particularly susceptible to physical and 
sexual abuse. Chinese farmers are often unable to find spouses because 
of their low social status as well as the migration of an already 
sparse population of potential women to the cities. The narrow 
probability of finding a wife leads many Chinese men to seek a 
companion among the vulnerable female population of North Korea. For 
the cost of $50 a trafficker will pose as a businessman and enter North 
Korea on behalf of a Chinese farmer. The trafficker will entice 
reluctant women by offering food, clothes, shelter and a ``better 
life'' in exchange for an arranged marriage with a Chinese suitor. 
Seeing no other options and often with the slim hope of providing for 
the family left behind in North Korea many women agree to the 
arrangement.
    The United Nations Protocol to Prevent, Suppress and Punish 
Trafficking in Persons defines trafficking in persons as: ``the 
recruitment, transportation, transfer, harboring or receipt of persons, 
by means of . . . the abuse of power or of a position of vulnerability 
or of the giving or receiving of payments or benefits to achieve the 
consent of a person having control over another person, for the purpose 
of exploitation.'' \1\
---------------------------------------------------------------------------
    \1\ http://www.unodc.org/unodc/en/trafficking_protocol.html.
---------------------------------------------------------------------------
    North Koreans are in the ultimate position of vulnerability with 
the only alternative to following a trafficker into China being 
starvation, suffering and possibly death. Knowing this, traffickers 
take advantage of the dire situations of young North Korean women and 
coerce them into agreeing to the arranged marriage. Many of the 
promises of a ``better life'' are never fulfilled and many of the 
arranged marriages are to physically disabled or alcoholic husbands 
with the end result often being abandonment or physical abuse.
    Traffickers also prey on refugees by offering jobs in China and 
lying about what they can offer them. Ms. Kim's\2\ family was 
approached by traffickers and her mother was given promises that they 
could provide a good job in a factory for her daughter. In addition, 
Ms. Kim would be able to regularly send money home to help the family. 
In fear of following these men into a foreign country and having to 
leave her family behind, Ms. Kim protested and refused to go. However, 
her mother encouraged her saying, ``Trust these people. It will be best 
for our family.'' When she finally arrived in China there was no 
factory, no job and no money. She was immediately sold and sexually 
abused by the man who bought her.
---------------------------------------------------------------------------
    \2\ All names of refugees have been changed to conceal their 
identity and protect their safety.
---------------------------------------------------------------------------
    So-Young was only 15 years old when she and a friend crossed the 
river from North Korea into China. They were approached immediately by 
Chinese men. They promised the girls wages of 300RMB ($36) per month if 
they worked for them. It was enough for the young girls to agree. The 
two thought surely they were too young to be sold as a wife or slave. 
The next morning however, So-Young awoke to discover that her friend 
had been sold. That was the last time she ever saw her. So-Young was 
forced to work and wait to grow taller in order to be sold. After four 
months, the first buyer came to claim his bride--a 40 year old Chinese 
man. ``I was so disgusted at that point, all I could do was cry out, 
`Heavenly Lord,' '' she said. ``I never heard the phrase before, I 
never heard of Jesus. But I had a slight conception of a heavenly place 
so I cried out.'' She managed to evade attempts to sell her by 
stubbornly refusing to go. After repeated failed attempts to sell her, 
So-Young was transported again to a new home and later came to realize 
she was simply being moved to meet a new buyer. She soon discovered 
that the mistress of the house was intending to sell her to help pay 
for college. So-Young recalled, ``She said she would no longer be able 
to take care of me, and that I should marry a Chinese man.'' 
Immediately, So-Young alerted one of the deacons of a local underground 
church in the village who had compassion for her situation and secretly 
ministered to her. Together they planned her escape. The next morning 
she ran away. After three years as a refugee however, So-Young was 
discovered and sent back to North Korea where she faced insufferable 
imprisonment for six months before escaping to China a second time. She 
was caught by traffickers again, and this time was raped by her 
sellers. Eventually, she was sold to a Chinese man who also raped her 
multiple times before she was able to run away. Today So-Young remains 
in hiding and faces daily the possibility of being captured again. 
``There are many people coming out of North Korea,'' she said. ``But 
they don't have anywhere to go and no other choice but to go that route 
[into China].''
    Unfortunately, the desperation of many North Korean women makes 
them susceptible to being trafficked more than once. HyunJoo first 
escaped to China in March 2004. She was sold and forced into an abusive 
relationship with a Chinese man. Unhappy and looking for a means of 
escape, she was able to make contact with a local pastor and entered 
into one of our Restore Life\3\ shelters. Against our advice, she 
attempted to flee to South Korea and was repatriated back to North 
Korea. She attempted to return to China in early 2005 but chronic pain 
in her lower extremities forced her to abort the attempt. Through our 
NKM ministry\4\ we were able to send funds for her to obtain medical 
attention. She entered China in December 2005 and subsequently was 
captured and trafficked to a Chinese buyer approximately 4 hours 
outside of Shenyang.\5\ We were unaware of her exact whereabouts until 
we received a phone call on February 16, 2006. She called requesting 
assistance and hoping to reenter a RL shelter. We are currently working 
feverishly to help her escape. She is just one of many who attempt this 
journey even if it means having to suffer again through the agony of 
being a trafficking victim.
---------------------------------------------------------------------------
    \3\ Restore Life (RL) ministry is the main refugee support mission 
of Crossing Borders.
    \4\ Crossing Borders sends in approximately five teams of Korean-
Chinese citizens per month into North Korea to provide assistance as 
part of its NKM ministry.
    \5\ Capital of Liaoning Province in Northeast China.
---------------------------------------------------------------------------
    Children are also the unintended victims of many of these 
trafficking stories. The children in our 2nd Wave shelters\6\ have a 
Chinese father and North Korean mother. Their mothers were subsequently 
repatriated, re-trafficked or have simply disappeared with the father 
unable or unwilling to take care of the children. Mina is an 8 year old 
young girl who studies hard in school and who loves to smile and laugh. 
Four years ago her North Korean mother disappeared apparently having 
abandoned her young daughter and her dying Chinese father. With his 
deteriorating health, her father was unable to care for her and Mina 
suffered in poverty and inattention. Thankfully, she was able to enter 
our shelter and with Chinese citizenship has a hope for a brighter 
future through constant love, care, and an opportunity to attend 
school. Unfortunately, many of these young children never get this 
opportunity and are often left to fend for themselves. The difference 
between finding hope in a local church and becoming a victim of 
trafficking is great but the probability of finding safety is slim. The 
road into China is littered with potential dangers including human 
traffickers, Chinese authorities and even North Korean security agents. 
But while still relatively few, the number of refugees able to find 
protection in the care of evangelical Christians and other 
organizations is growing.
---------------------------------------------------------------------------
    \6\ One of the ministries of Crossing Borders committed to giving 
hope and opportunity to needy children.
---------------------------------------------------------------------------
                   iv. chinese government persecution
    In 2002, along the streets of Yanji City\7\ just 30 kilometers from 
the North Korean border, it was not uncommon for visitors to encounter 
North Korean refugees begging for food and money in the streets. Many 
of these refugees were children. However, by 2005, there were 
absolutely no refugees visible in and around the city streets of Yanji 
City.
---------------------------------------------------------------------------
    \7\ Capital of the Yanbian Autonomous Prefecture in Northeast 
China.
---------------------------------------------------------------------------
    Beginning in 2003, it appears that the Chinese government increased 
its efforts to hunt down and repatriate North Korean refugees as well 
as persecute and arrest those who attempted to provide assistance to 
refugees. This increase in pressure has forced refugees to go deeper 
into hiding and become even more dependent on the network of 
organizations devoted to giving them help. According to local reports, 
as many as 40 refugees per month were being repatriated by Chinese 
authorities through the Tumen Detention Center in 2003.
    Through our NKM ministry we were able to gain intimate details of 
what happens to repatriated refugees after being caught by Chinese 
police. Mrs. Huh's son and younger sister fled to China and found 
refuge in a local church. However, a raid by Chinese police resulted in 
their detention and forced repatriation back to North Korea. Mrs. Huh's 
son and younger sister were summarily executed by firing squad for 
allegedly committing criminal acts while in China. Unofficially, the 
real reason for their execution was their contact with the local church 
in China and for their conversion to Christianity. These types of 
stories of complicity by the Chinese government and the severe 
punishment of repatriated North Koreans have been well documented.
    As has been widely reported, China has failed to live up to its 
obligations under the 1951 Convention relating to the Status of 
Refugees and its 1967 Protocol. China continues to stand by its 
position that North Koreans are economic migrants and thus their 
expulsion is a valid exercise of their right to enforce illegal 
immigration policy. With the definitive accounts of conditions within 
North Korea, it is obvious that North Koreans are fleeing famine and 
persecution and not as economic migrants. China is in clear violation 
of its obligations by failing to render aid, by forcibly repatriating 
refugees and by blocking access to refugees by the United Nations High 
Commissioner for Refugees (UNHCR).\8\ In addition, the entire 
governmental system of enforcement continues to be saturated in 
corruption and inconsistency. The staff at Crossing Borders observed 
there appears to be an increase in governmental activity and 
persecution in the winter months leading up to the New Year. Further 
inquiry leads us to believe that the increase at least in part and 
probably in whole is due to the coming festive season of New Year's and 
the seeking of bribes by local officials to supplement their income in 
preparation for the coming celebration. In winter 2003, the Chinese 
government cracked down on local churches for harboring North Korean 
refugees. Fines were assessed and local pastors were banned from 
entering church grounds. Recently, around Christmas 2005, Yanji Church 
received a fine of 60,000RMB ($7500).\9\
---------------------------------------------------------------------------
    \8\ Under its agreement obligations, China is required to grant the 
UNHCR unimpeded access to refugees in China.
    \9\ Although this fine was unrelated to involvement with North 
Koreans it is here to illustrate the increase in bribes during the 
winter months.
---------------------------------------------------------------------------
    Most regrettably, one of our local shelters was forced to shut down 
because of 
Chinese governmental pressure. We maintained a shelter of three North 
Korean teenagers until October 23rd of last year when we received word 
that one of the teenager's parents were attempting to flee to South 
Korea and wanted to take their son with them. After his departure from 
the shelter we continued to maintain it until December 16th when the 
remaining teens and their caretaker were forced to abandon the shelter 
after three Chinese policemen had knocked on the door earlier in the 
day. Only one of the teens was present at home at the time and wisely 
did not answer the door. The local staff person responsible for the 
administration of this shelter was forced to go into hiding into the 
countryside for approximately one month leaving behind his wife. The 
breach in security forced us to close down the shelter. Later we 
learned that the family attempting to escape to South Korea was 
captured by Chinese officials. Under interrogation, they proffered the 
name of the local staff person and the location of the shelter. The 
whereabouts of the family are still unknown. If captured, the local 
staff person who is a Chinese citizen would most likely have been 
imprisoned, interrogated and/or fined a substantial amount.
    The network of local Chinese citizens is an invaluable part of the 
ongoing work to help rescue and restore North Korean refugees. Without 
their assistance, the work of Crossing Borders and other organizations 
would be impossible. Our status as foreign aid workers offers some form 
of limited protection against the Chinese authorities, but these local 
workers have no such protections and risk their very lives and freedom 
in helping North Koreans.
                             v. conclusion
    Crossing Borders is committed to providing assistance to the 
continuing flow of North Korean refugees that enter China everyday. 
Although there are potentially one thousand refugees in need of 
assistance within our network of local churches, we are only able to 
directly help a small fraction of them. The Chinese government and its 
actions against North Koreans stand as an enormous roadblock to 
achieving our mission. Understandably, the situation is a complicated 
one, but the United States has an obligation to take a stand against 
China and North Korea as perpetuators of evil and suffering against a 
weak and vulnerable population. The Chinese government has done little 
to combat the network of traffickers that exist along the North Korean 
border and fails to comply with its obligations to protect North 
Koreans within its country. We hope that provision may be made to 
provide asylum for these suffering people and that the United States 
would be the leader in providing hope to a people starving for a better 
life.
                                 ______
                                 

 Prepared Statement of Hon. Chuck Hagel, a U.S. Senator From Nebraska, 
         Chairman, Congressional-Executive Commission on China

                             march 6, 2006
    The Congressional-Executive Commission on China meets today to 
examine human trafficking in China. The Commission will also consider 
domestic and international efforts to help stop human trafficking in 
and through China and to help rehabilitate victims of trafficking.
    Human trafficking in China is a serious problem. According to a 
2002 United Nations Children's Fund (UNICEF) estimate, there are 
approximately 250,000 victims of trafficking in China. Traffickers are 
increasingly linked to organized crime and specialize in abducting 
girls and women both for the bridal market in China's poorest areas and 
for sale as prostitutes in urban areas. North Korean refugees are an 
especially vulnerable group. Today's Administration witness, Ambassador 
John Miller, has estimated that 80 to 90 percent of the refugees from 
North Korea, particularly women and children, end up as trafficking 
victims.
    The Chinese government has publicly acknowledged the seriousness of 
the problem and has taken steps to stop trafficking and aid victims. 
Chinese experts and officials have cooperated with international 
agencies including the International Labor Organization (ILO) and 
UNICEF to combat trafficking. China's Law on the Protection of Rights 
and Interests of Women outlaws trafficking, and Article 240 of the 
Criminal Law outlines harsh penalties for those convicted of human 
trafficking related crimes.
    These steps reflect a serious effort, but the Chinese government 
needs to do more. The Commission is concerned that China fell from 
``Tier 2'' to ``Tier 2 Watch Status'' in the State Department's 
Trafficking in Persons Report for 2005 because of inadequate protection 
of trafficking victims. The Chinese government must uphold 
international agreements and grant the U.N. High Commission for 
Refugees unimpeded access to screen the refugee petitions of North 
Koreans in China. The Chinese government has not signed the U.N. 
Protocol to Prevent, Suppress, and Punish Trafficking in Persons, 
Especially Women and Children.
    The United States can do more. In its 2005 Annual Report, the 
Commission recommended that the President and Congress continue to 
support international programs to build law enforcement capacity to 
prevent trafficking in and through China, and additionally should 
develop and fund programs led by U.S.-based Non-Governmental 
Organizations (NGO) that focus on the protection and rehabilitation of 
victims, especially legal and educational assistance programs. But the 
Chinese government must become more open to cooperation with foreign 
NGOs.
    To help us better understand the human trafficking problem in 
China, and international and domestic efforts to fight trafficking and 
assist victims, we turn to our witnesses.
    Representative Chris Smith has been a leader in Congressional 
efforts to combat trafficking worldwide and assist victims of 
trafficking. Earlier this year, President Bush signed into law 
Representative Smith's third anti-trafficking bill, the Trafficking 
Victims Protection Reauthorization Act of 2005. This new law provides 
significant additional anti-trafficking and protection measures for 
victims and potential victims of trafficking.
    Representative Smith is Vice Chairman of the House International 
Relations Committee, and Chairman of the International Relations 
subcommittee on Africa, Global Human Rights, and International 
Operations. The Commission is very pleased that Mr. Smith will be 
making a statement at today's hearing.
    Speaking on behalf of the Administration will be Ambassador John R. 
Miller, who is Director of the State Department's Office to Monitor and 
Combat Trafficking in Persons and Senior Advisor to Secretary of State 
Condoleezza Rice on human trafficking. From 1985 to 1993, Mr. Miller 
served in the U.S. House of Representatives from the state of 
Washington. While in Congress, Mr. Miller held a seat on the Committee 
on International Relations and was a member of the Congressional Human 
Rights Caucus.
    After Ambassador Miller, we will hear from a distinguished panel of 
experts who will share their knowledge and expertise. Mr. Roger Plant 
will lead Panel Two. Mr. Plant is the Head of the ILO's Special Action 
Program to Combat Forced Labor. Mr. Plant has been a leading 
investigator and activist on forced labor and modern slavery for more 
than 30 years. Prior to joining the ILO Mr. Plant worked with the Asian 
Development Bank, United Kingdom Department for International 
Development; Inter-American Development Bank, United Nations Officer of 
the High Commissioner for Human Rights; Shell International, Danish 
International Development Agency, and several international human 
rights NGOs.
    Ms. Wenchi Yu Perkins will provide perspectives on the problem of 
human trafficking to and from China. Ms. Perkins is the Director of 
Anti-Trafficking and Human Rights Programs at Vital Voices. Prior to 
joining Vital Voices, Ms. Perkins worked with victims of trafficking 
and conducted training for law enforcement and NGOs in the Midwest. She 
was also a foreign policy assistant in Taiwan's parliament and worked 
in the Taiwan representative office in Chicago. She has an MA in 
International Relations from the University of Chicago and a BA in 
Political Science from National Taiwan University.
    Finally, Mr. Abraham Lee will testify to the Commission on the 
problems faced by North Korean refugees in China. Mr. Lee is Director 
of Public Affairs for Crossing Borders, an NGO devoted to assisting 
North Korean refugees in Northeast China. Mr. Lee has been in China for 
the past three years working with North Korean refugees and teaching 
college English. He received his BA in Economics from the University of 
Maryland in 1999 and his JD from the University of Maryland School of 
Law in 2002.
    We welcome all of our witnesses today and appreciate their time and 
presentations.
                                 ______
                                 

Prepared Statement of Hon. James A. Leach, a Representative From Iowa, 
        Co-Chairman, Congressional-Executive Commission on China

                             march 6, 2006
    Chairman Hagel, fellow members of the Commission,
    I am pleased to join the Commission this afternoon in convening 
this important hearing on trafficking in persons in the People's 
Republic of China. Under the provisions of Public Law No. 106-286, the 
Act which created this Commission, the CECC continues today its 
monitoring of Chinese government policy and practice on this important 
cross-border issue. I join you in welcoming our distinguished panels of 
witnesses, including my colleague Representative Chris Smith of New 
Jersey, who is an acknowledged expert on the issue that is the subject 
of our inquiry today, and former Representative John Miller, with whom 
I served for a number of years in the House.
    Ambassador Miller's work on the urgent matter of international 
trafficking in human beings since his appointment to the State 
Department in 2004 deserves our respect, because this crime against 
human dignity is unconscionable anywhere it occurs. The comprehensive 
and excellent annual Human Trafficking Repot that Ambassador Miller's 
office produces each year is a sobering assessment of transnational 
criminality and the profound human suffering that it causes.
    The Chinese government has undertaken a number of positive steps to 
try to curb trafficking in human beings in and through China. As the 
Commission's Annual Report for 2005 notes, these steps include 
supporting some international initiatives and enacting domestic laws to 
establish a framework for the investigation and prosecution of 
traffickers. But trafficking in persons--particularly of women and 
female children--remains great in China, and the toll on its victims 
greater. In addition to the Chinese government's own domestic efforts, 
international cooperation to arrest and prosecute traffickers and 
assist the victims is crucial.
    I look forward to hearing the expert testimony of Congressman 
Smith, Ambassador Miller, and our witnesses representing international 
and non-governmental organizations.
    Thank you.
                                 ______
                                 

 Prepared Statement of Hon. Sam Brownback, a U.S. Senator From Kansas, 
          Member, Congressional-Executive Commission on China

                             march 6, 2006
    Mr. Chairman, I commend you for calling this hearing and am pleased 
that the Congressional-Executive Commission on China (CECC) is taking a 
hard look at human trafficking in China.
    China is certainly not the only country dealing with the scourge of 
human trafficking, in fact, the State Department's 2005 Trafficking in 
Persons (TIP) Report details the trafficking situation in 150 
countries. But what makes the tragedy of human trafficking in China all 
the more unjustifiable is that a good portion of the human trafficking 
in China is internal only to China, and is fueled by its own social 
policies.
    I am talking about China's one-child policy.
    This is an Orwellian policy that over the past 25 years has created 
a lost generation of daughters and wives-some say as many as 40-60 
million by the end of this decade. The International Labor Organization 
states that the trends in trafficking in China are distinctive because 
most of it occurs for marriage or adoption. This gender imbalance means 
that women have become a commodity in China-a commodity that can be 
bought and sold. The TIP report notes that ``significant numbers of 
Chinese women are trafficked internally for forced marriage.'' We don't 
know the exact number of women who are sentenced to a life of 
degradation and servitude-but even one is one too many.
    Boys are vulnerable as well under this system. UNICEF estimates the 
going price for a baby boy in China is about US $3,000. Again, this is 
based on a Chinese Government policy that dictates the number of 
children a couple can have. The result is families that are deprived of 
daughters, infant girls that are killed before they are born (girls 
account for 70 percent of abortions in China), and baby girls that are 
routinely abandoned. And if a girl is lucky enough to survive a few 
years, she is then vulnerable as a commodity on the marriage or labor 
market.
    The TIP report states that despite some increased law enforcement 
activity, China's enforcement of laws and prosecution of traffickers is 
``inadequate.'' I would also add to that assessment that one of the 
real problems that feeds trafficking in China is rampant corruption 
within the Chinese Government-including law enforcement-and the lack of 
a rule of law in which an independent judiciary would hear trafficking 
and forced labor cases. I suspect that if China had such a system, many 
of the cases those courts would hear today would involve Chinese 
officials abusing their position of power to traffic women and 
children.
    Sadly, those are not the cases that we see in China today.
    I am also deeply concerned about the plight of North Korean women 
in China. The ongoing food and economic crisis in North Korea has 
driven an estimated 200,000 North Koreans to northeast China, fleeing 
for their lives from prison camps or political persecution. Once in 
China, North Koreans seek work and shelter with relatives, 
acquaintances or strangers, moving from time to time to avoid being 
detected by the Chinese authorities. Traffickers seek out North Korean 
women to exploit at river crossings, train stations or markets. Women 
who cross the border alone are often picked up as soon as they reach 
the other side by traffickers who lie in wait for them. Many arrive 
hungry and desperate and become easy targets for the traffickers.
    Because of discriminatory social status, women without trusted 
family members in China have little choice but to rely on strangers for 
assistance and information. In such situations, North Korean women and 
children, who are cheaper in price than Chinese women and who have no 
legal protection in China, easily fall prey to sexual exploitation. 
These women are abducted and sold, either to men as informal wives or 
concubines or to the sex industry. Because of the growing gender 
disparity, many men have difficulty finding a wife, particularly in 
rural areas. In this context, North Korean women are mostly sold to 
Chinese farmers who are considered undesirable to Chinese women because 
of their poverty, age, or disability.
    The repressive government of North Korea does not comply with the 
minimum standards for the elimination of trafficking and is not making 
efforts to do so. China does not even meet minimal standards under the 
Refugee Convention to reduce the kidnapping, deportation and sexual 
exploitation of North Korean women living under these inhumane 
circumstances. The UN High Commission on Human Rights ought to take an 
active approach for North Korean women who live under suppressed 
feelings of shame, anger and agony in an isolated state of desperation. 
China must be held accountable by allowing the UN High Commissioner for 
Refugees unimpeded access to North Koreans in China.
    Provisions of the North Korean Human Rights Act calling for the 
admission of North Korean refugees into the United States have been 
ignored. As a result, the recent State Department report on 
implementation of the Act's refugee provisions was required to make the 
admission that not a single North Korean refugee has been admitted to 
the United States since the Act's passage. Special Envoy Lefkowitz has 
publicly voiced his determination to ensure the rapid admission of some 
refugees into the United States, but we need to ensure that the numbers 
of North Koreans admitted will be sufficient to provide real relief to 
North Korean refugees.
    While I commend the tremendous work done in the TIP report and the 
progress made in working with NGO's and other governments on 
trafficking, in my view, the Report glosses over the very human aspect 
of internal trafficking in China. I want to encourage the State 
Department to focus more attention on the human rights violations 
inherent in internal trafficking in China.
    While we can commend China for taking steps in the right direction, 
there are some real fundamental structural and policy issues within 
China that have to be resolved before we will see real progress in 
fighting trafficking.
    We need to see much more progress from the Chinese Government in 
rescuing these victims and prosecuting those responsible. This means 
engaging China more forcefully on building a society based on the rule 
of law. We also need to engage China on the very human and social evils 
of the one-child policy and encourage them to end this policy now.

   Prepared Statement of Hon. Steven J. Law, Deputy Secretary, U.S. 
  Department of Labor, Member, Congressional-Executive Commission on 
                                 China

                             march 6, 2006
    Chairman Hagel and Co-Chairman Leach, I thank you for holding this 
hearing that highlights one of today's worst human rights tragedies--
the trafficking of humans for labor and sexual exploitation. I also 
want to recognize Ambassador John Miller and Mr. Roger Plant, both 
colleagues who I have been fortunate to work with in the global effort 
to fight human trafficking.
    This Commission's legislative mandate is to monitor China's 
compliance with or violation of human rights, and I am particularly 
honored to serve as an executive branch commissioner on this topic. The 
abolition of human trafficking is an Administration priority that 
captured my professional and personal interest.
    President Bush has called human trafficking a ``modern form of 
slavery'' and fighting to end this horrible practice remains an 
important goal of this Administration.
    Three years ago, President Bush made a pledge before the United 
Nation's General Assembly to support organizations that are rescuing 
victims of trafficking around the world and are providing them hope for 
a better future.
    In January of this year, President Bush again demonstrated his 
commitment to this issue, signing into law the Trafficking Victims 
Protection Reauthorization Act (TVPRA). This Act strengthens U.S. 
efforts to combat trafficking in persons in the United States and 
abroad, and it places renewed emphasis on the need to halt the 
trafficking of workers into various forms of labor exploitation. In 
signing this Act, the President also called upon other nations to take 
actions against trafficking within their own borders.
    In my own Department, we are engaged both domestically and 
internationally in efforts to combat trafficking in persons. These 
efforts build upon the Department of Labor's long history of working to 
protect and assist vulnerable workers. Since 1995, the Department of 
Labor has provided over $164 million to fund projects that help to 
combat trafficking in persons for the purpose of labor and commercial 
sexual exploitation. In fiscal year 2005 alone, the Department of Labor 
provided $38.4 million to fund 13 projects in 18 countries.
    As we begin this hearing, I would like to make an important 
distinction between human smuggling and human trafficking, as both are 
significant issues for China. The issue of human smuggling refers to 
the consensual endorsement of individuals to be transported to another 
country by circumventing immigration control. These individuals usually 
pay large sums of money to be illegally transported out of China. What 
distinguishes trafficking from smuggling is the presence of deception, 
force, or coercion designed to entrap a person in forced servitude and 
deny his or her fundamental right to freedom.
    Across the world, the transnational phenomenon of human trafficking 
involves both trafficking for sex and labor exploitation, with a 
majority of trafficking cases involving some form of forced labor. 
Individuals are often forced to toil in brutal conditions in sweatshops 
and other hidden workplaces.
    We recognize, however, that in many ways the problem of trafficking 
in China is unique. While sex and labor trafficking exist in China, 
factors such as cultural norms, demographic transitions, social 
policies, and economic conditions make individuals and communities in 
the country vulnerable to other forms of internal and cross-border 
trafficking.
    For example, we have learned of documented instances of trafficking 
for forced marriage and illegal adoption in China. Women and girls in 
rural communities who choose to migrate to urban centers with hopes for 
better economic opportunities are sometimes tricked by job recruiters, 
and find themselves forced into marriage or into positions of 
involuntary servitude.
    Moreover, China's one-child policy has allegedly contributed to the 
internal trafficking and/or abduction of male infants so that families 
without boys can raise them as their own to continue the family line. 
Baby girls are also reportedly a target for traffickers who see foreign 
adoption as a lucrative business.
    Given the enormous size of China's population, at 1.3 billion 
people, there is an urgent need to uncover the scale and confront the 
problem of trafficking. As migration within and outside the country 
continues, the problem of human trafficking has the potential to 
escalate greatly. This is no time to downplay the problem.
    As long as human trafficking persists in China, this Commission 
will remain steadfast in making this issue a focus of its agenda. While 
the Government of China has recognized human trafficking as a problem, 
much more remains to be done.
    We need to call on the Government of China, neighboring countries, 
international agencies, and nongovernmental organizations to produce 
reliable research and data on the nature and magnitude of trafficking 
so that better policies and programs can be designed and implemented 
that respond to the country's trafficking problem.
    As China positions itself as a dynamic player in the global economy 
and we continue to expand our trade relations with the country, we must 
call upon the Government of China to work diligently and earnestly to 
eliminate this modern-day form of slavery.
    A little over a year ago, I had the opportunity to visit one of 
DOL-funded trafficking projects in India, and it was heartbreaking for 
me to see the conditions under which some children work and to hear the 
stories of victims of sex trafficking. At the same time, I was 
encouraged to witness first-hand the impact of successful programs to 
help trafficking victims and to see the hope restored in the eyes of 
children who had been trafficked.
    With this, I look forward to hearing the first-hand experience of 
our distinguished panelists and to learning how their organizations 
address the indefensible institution of trafficking of women and 
children in China. Thank you.

                                 <all>

</pre></body></html>
